Report No. DODIG-2013-044         March 7, 2013




        Monitoring of the Quality of the
        Defense Contract Audit Agency
                FY 2010 Audits
Additional Copies
To obtain additional copies of the final report, visit www.dodig.mil/audit/reports or
contact the Office of the Assistant Inspector General for Audit Policy and Oversight at
(703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(571) 372-7454, or by mail:

                        Department of Defense Inspector General
                           OAIG-Audit Policy and Oversight
                               ATTN: APO, Suite 11D28
                                4800 Mark Center Drive
                              Alexandria, VA 22350-1500




Acronyms and Abbreviations
AICPA                         American Institute of Certified Public Accountants
CAM                           Contract Audit Manual
CIGIE                         Council of the Inspectors General on Integrity and
                                Efficiency
DCAA                          Defense Contract Audit Agency
GAGAS                         Generally Accepted Government Auditing Standards
GAO                           Government Accountability Office
IG                            Inspector General
MRD                           Memorandum for Regional Directors
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                            March 7, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Monitoring of the Quality of the Defense Contract Audit Agency FY 2010 Audits
         (Report No. DODIG-2013-044)

       We are providing this report for review and comment. The completion of this report was
delayed due to a shift in our primary oversight of DCAA to reviewing Defense Hotline
complaints during the period of January 2010 through January 2012.

        We found that the Defense Contract Audit Agency (DCAA) did not exercise professional
judgment in performing 37 (74 percent) of the 50 FY 2010 assignments reviewed. DCAA
performed much of the field work on the reviewed assignments prior to FY 2010 and since FY
2009 has taken various corrective actions to address deficiencies identified in our review. This
report acknowledges DCAA corrective actions and includes additional recommendations
intended to improve audit quality. We will evaluate the effectiveness of DCAA corrective
actions in the future. Additionally, we will evaluate the current DCAA system of quality control
for audits as a part of our upcoming peer review.

        We considered management comments on a draft of this report when preparing the final
report. Comments provided by DCAA were partially responsive. DoD Directive 7650.3
requires that recommendations be resolved promptly. We request that DCAA provide additional
comments for Recommendations 9.b, 11.a, 11.b, 11.c, 13, 16, and 17. We should receive the
comments by April 5, 2013.

        If possible, send an Adobe Acrobat pdf file containing your comments to either e-mail
address provided below. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol in place
of the actual signature.

        We appreciate the courtesies extended to the staff. Please direct questions to me or
Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), Carolyn.Davis@dodig.mil or
Ms. Diane H. Stetler at (703) 604-8737 (DSN 664-8737), Diane.Stetler@dodig.mil. If you
desire, we will provide a formal briefing on the results.
Report No. DODIG-2013-044 (Project No. D2010-DIP0AC-0115)                                                                         March 7, 2013



                                                   Results in Brief: Monitoring of the Quality of
                                                   the Defense Contract Audit Agency FY 2010
                                                   Audits
                                                                                                         Significant quality issues identified included
What We Did                                                                                              external    impairments     to    independence,
We performed quality assurance reviews on 50                                                             inadequate planning, poor communications with
Defense Contract Audit Agency (DCAA)                                                                     the requester and contractor, insufficient
reports issued during the first half of FY 2010.                                                         evidence, unsupported or untimely reports, poor
We evaluated assignments from all five DCAA                                                              documentation, and ineffective supervision and
regions and the Field Detachment to determine                                                            quality control. DCAA stated that the reviewed
compliance with government auditing standards                                                            assignments could still evidence the residual
and DCAA policies and procedures.            The                                                         effects of the production-oriented environment
completion of this report was substantially                                                              that previously existed. Since FY 2009, DCAA
delayed due to the shift in our primary oversight                                                        has taken various corrective actions such as
of DCAA from reviews of audit quality to the                                                             revising training class curriculums, requiring
review of hotlines during the period January                                                             additional training for all audit staff, and
2010 through January 2012.                                                                               revamping audit programs and guidance. We
                                                                                                         will evaluate the effectiveness of these actions
What We Found                                                                                            during future reviews.
DCAA did not exercise professional judgment
in performing 37 (74 percent) of the 50 FY 2010                                                          What We Recommend
assignments reviewed. DCAA performed much                                                                We recommend that DCAA consider rescinding
of the field work on the reviewed assignments                                                            or supplementing certain reports, and taking
prior to FY 2010. The abundance of non-                                                                  other appropriate actions on the 37 assignments.
compliances with standards identified in the 37                                                          We also recommend that DCAA reassess
assignments    evidenced      the    need    for                                                         various policies, procedures, and training and
improvements in the area of competence at                                                                revise them, as appropriate, to improve audit
DCAA.                                                                                                    quality and compliance with government
                                                                                                         auditing standards.
                                       The Number of Noncompliance Identified For
                                                  The Standard Listed
                                  50                                                                     Management Comments and
                                                                                                         Our Response
 Number of Assignments Reviewed




                                  40

                                                                                                         DCAA management comments were generally
                                  30
                                                                                     Compliance
                                                                                                         responsive. DCAA considers corrective actions
                                                                                     Noncompliance       completed on 17 recommendations. Based on
                                  20
                                                                                                         management comments, we deleted draft
                                  10
                                                                                                         Recommendation 4 and revised draft
                                                                                                         Recommendation 12.a, now 11.a. We also
                                  0                                                                      clarified three findings. We request that DCAA
                                                                                                         provide      additional   comments       on   7
                                                                                                         recommendations.           Please     see   the
                                            Standards Assignments Assessed Against
                                                                                                         recommendations table on the back of this page.


                                                                                                     i
Report No. DODIG-2013-044 (Project No. D2010-DIP0AC-0115)                         March 7, 2013

Recommendations Table

      Management                   Recommendations                No Additional Comments
                                  Requiring Comment                     Required

Director, Defense Contract   9.b, 11.a, 11.b, 11.c, 13, 16, 17   1.a, 1.b, 1.c, 2, 3, 4.a, 4.b, 4.c,
Audit Agency                                                     5, 6, 7, 8, 9.a, 9.c, 10, 11.d,
                                                                 12.a, 12.b, 12.c, 14, 15

Please provide comments by April 5, 2013.




                                              ii
Table of Contents
Introduction

      Objectives                                                             1
      Background                                                             1

General Standards

      Professional Judgment                                                  5
      Independence                                                           8
      Competence                                                            13
      Quality Control and Assurance                                         17

Examination Engagements

      Planning                                                              26
      Auditor Communication During Planning                                 33
      Evidence                                                              37
      Documentation                                                         43
      Fraud, Illegal Acts, Violations of Provisions of Contracts or Abuse   45
      Supervision                                                           51
      Reporting                                                             53

Agreed-Upon Procedures Engagements                                          60

Performance Audit                                                           67

Appendices

      A. Scope and Methodology                                              71
      B. Summary of Deficiencies Identified With
         Government Auditing Standards by Individual Assignment             74

Management Comments                                                         78
Introduction
Objectives
We conducted this review to determine whether attestation engagements 1 and
performance audits 2 performed by the Defense Contract Audit Agency (DCAA) in
FY 2010 complied with generally accepted government auditing standards (GAGAS),
applicable DoD policies, and DCAA policies and procedures. We reviewed
47 examination engagements, 2 agreed-upon procedures engagements, and
1 performance audit. This amounts to a total of 50, with reports issued from
October 1, 2009 through March 31, 2010. We will use the review results of FY 2010
assignments 3 as a baseline to measure future improvements in DCAA audit 4 quality. See
Appendix A for a discussion of our scope and methodology.

Background
Defense Contract Audit Agency

DCAA Charter. In 1965, DCAA was formed to provide a single contract audit
capability within the Department of Defense. DoD Directive 5105.36, “Defense Contract
Audit Agency,” provides the mission, organization and management, responsibilities and
functions, relationships, and authorities of DCAA. DCAA is a Defense agency under the
direction, authority, and control of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. The primary mission of DCAA is to perform contract audits for DoD.
DCAA also provides accounting and financial advisory services regarding contracts and
subcontracts to DoD Components responsible for procurement and contract
administration. In addition, DCAA performs contract audit services for non-DoD Federal
organizations on a reimbursable basis, as appropriate. DCAA performs the majority of
its work (88.25 percent of hours charged to assignments performed under GAGAS) as


1
  Attestation engagement is one of the three categories that the Comptroller General of the United States-
issued generally accepted government auditing standards requirements apply to. Attestation engagements
can cover a broad range of financial or nonfinancial objectives and may provide different levels of
assurance about the subject matter or an assertion depending on the user’s needs. Attestation engagements
result in an examination, a review, or an agreed-upon procedures report on a subject matter or on an
assertion about a subject matter that is the responsibility of another party.
2
  Performance audit is another of the three categories that the generally accepted government auditing
standard requirements apply to. GAGAS 1.25 defines performance audits as “…engagements that provide
assurance or conclusions based on an evaluation of sufficient, appropriate evidence against stated criteria,
such as specific requirements, measures, or defined business practices.”
3
  The term ‘audit assignment’ is defined by DCAA as “… the authorization to perform a particular phase or
aspect of the contract audit responsibility at a specific contractor.” DCAA establishes assignment numbers
in its management information system to track individual projects being performed by the audit staff.
4
  DCAA uses the term ‘audit’ to refer to individual assignments and considers it as referring to a variety of
types of evaluations of various types of data by a person other than the preparer of the data. To improve
report readability, this report uses the term ‘audit’ to refer to an examination engagement when discussing
the quality of work performed under GAGAS.


                                                     1
examination 5 engagements. DCAA also conducts some agreed-upon procedures 6
engagements and a limited number of performance audits that are conducted as
operations audits. In FY 2010, DCAA issued 11,610 reports covering $228 billion.
Additional information on DCAA work is provided in Table 1 below.

                              Table 1. FY 2010 DCAA Statistics
     Type of              Number of       Dollars       Questioned                                Hours
    Assignment             Reports      Examined           Costs                                 Charged
                                          (000s)           (000s)
Operations                        25              $0           $325,025                                25,479
Audits
Incurred Cost                     1,634            33,459,535                   137,685               806,388
Internal Controls                   533                     0                         0               187,366
Special Audits                    3,112             8,147,334                   832,011               688,960
Cost Accounting                     916               946,270                    40,419               254,788
Standards
Forward Pricing                   5,331          185,060,882                12,267,786             1,325,704
Defective Pricing                    59                    0                    53,747                38,009
 Totals                          11,610         $227,614,021               $13,656,673             3,326,694

DCAA Organization and Functions. In FY 2012, DCAA had approximately
4,725 employees located in 116 field offices throughout the United States, Europe, the
Pacific, and Southwest Asia. DCAA consists of headquarters, five regions, and Field
Detachment (for classified audits). Regional directors are responsible for planning,
managing, and accomplishing the DCAA mission in assigned geographical areas,
including personnel and resources in the individual regional offices and various field
audit offices within their region. The Field Detachment director has the same
responsibility for worldwide DCAA contract audits of compartmented programs and the
personnel and resources assigned to Field Detachment. DCAA audits forward pricing
proposals submitted by contractors and subcontractors in connection with award,
administration, modification, or re-pricing of Government contracts. 7 DCAA audits also
help contracting officers determine the adequacy of a contractor’s estimating, budgeting,
billing, and accounting systems. In addition, DCAA audits for compliance with cost
accounting standards and disclosed accounting practices; and allowability of incurred
costs charged to the Government in accordance with the Federal Acquisition Regulation
and the Defense Federal Acquisition Regulation Supplement.



5
  An examination engagement or examination provides positive assurance. GAGAS 1.23a states that an
examination “…[c]onsists of obtaining sufficient, appropriate evidence to express an opinion on whether
the subject matter is based on (or in conformity with) the criteria in all material respects or the assertion is
presented (or fairly stated), in all material respects, based on the criteria.”
6
  GAGAS 1.23c states that an agreed-upon procedures engagement or agreed-upon procedures
“…[c]onsists of specific procedures performed on a subject matter.”
7
  Forward pricing proposals assignments are audits of estimated future costs of proposed contractor pricing,
proposed contract change orders, costs for re-determinable fixed-price contracts, and costs incurred but not
yet covered by definitized contracts.


                                                       2
Generally Accepted Government Auditing Standards
DoD Instruction 7600.02 dated April 27, 2007, “Audit Policies,” requires that all
independent audit and attestation engagements of DoD organizations, programs,
activities, and functions be conducted in accordance with GAGAS as issued by the
Comptroller General of the United States. GAGAS provides the framework for auditors
to perform high-quality audit work with competence, integrity, objectivity, and
independence. The standards require auditors to exercise professional judgment in
planning and performing audits and attestation engagements, and in reporting the results.
GAGAS includes ethical principles; general standards; field work and reporting
Standards for Financial Audits; General, Field Work, and Reporting Standards for
Attestation Engagements; and Field Work and Reporting Standards for Performance
Audits sections. For attestation engagements, GAGAS incorporates the American
Institute of Certified Public Accountants (AICPA) general standard on criteria, the field
work and reporting standards, and related Statements on Standards for Attestation
Engagements [SSAE] unless specifically excluded or modified. 8 GAGAS also
establishes additional field work and reporting standards for attestation engagements.

GAGAS-Required Peer Review
Since August 26, 2009, DCAA has not had an opinion on its quality control system
covering DCAA audits and attestation engagements as required by GAGAS 3.59b.
GAGAS 3.50b and 3.55 require audit organizations performing audits or attestation
engagements in compliance with GAGAS to have an external peer review at least once
every 3 years. Based on the criteria, DCAA should have obtained a peer review on its
work performed in FY 2009.

We performed the last peer review on DCAA audit and attestation engagement reports
issued in FY 2006. We issued Report No. D-2007-6-006, “Review of the Defense
Contract Audit Agency Quality Control System,” on May 1, 2007. We concluded that
the DCAA system of quality control used on audits and attestation engagements for the
review period ended September 30, 2006, was adequate. The report identified several
concerns or areas that DCAA needed to improve in to comply with GAGAS while
conducting engagements.

    •    Incurred cost desk reviews should not have been performed as review
         engagements. 9
    •    Contract audit closing statement assignments performed using standard programs
         did not gather sufficient evidence to meet the GAGAS requirements for
         examination engagements.


8
  The 2007 revision to GAGAS, did not exclude any field work standards, reporting standards, or
Statements on Standards for Attestation Engagements.
9
  GAGAS 1.23b states that review engagements consist of sufficient testing to express a conclusion about
whether any information came to the auditors’ attention based on the work performed that indicates the
subject matter is not based on (or not in conformity with) the criteria or the assertion is not presented fairly
(or not stated fairly) in all material aspects based on the criteria. This is also known as providing negative
assurance.


                                                       3
   •   Agreed-upon procedures engagements did not comply with applicable standards
       regarding requester responsibility for procedures; proper definition of criteria;
       appropriate definition of procedures; and reporting requirements.
   •   Specific criteria used in the working papers or in the associated report were not
       properly identified.
   •   Steps were not designed to provide reasonable assurance of detecting fraud,
       illegal acts, or violations of contract provisions.
   •   Sampling plans for nonstatistical and statistical samples were not adequately
       documented.
   •   DCAA reports did not fully disclose or describe the use of statistical or
       nonstatistical sampling plans.

The report also informed DCAA that continued and repeated noncompliances identified
during its internal quality assurance reviews could indicate significant deficiencies in the
DCAA quality control system and could negatively impact the overall peer review
opinion in future peer reviews.

On August 24, 2009, we notified DCAA that our opinion would no longer apply to the
DCAA system of quality control. This action resulted from our significant findings
described above coupled with the results of the July 2009 Government Accountability
Office (GAO) draft report, “DCAA Audits: Widespread Problems with Audit Quality
Require Significant Reform” (GAO-09-468). After August 26, 2009, all DCAA reports
identified as being in compliance with GAGAS should have contained a modified
GAGAS statement noting an exception to compliance with the Quality Control and
Assurance standard until a new DCAA peer review report is issued.

In FY 2012, with the assistance of the Council of Inspectors General on Integrity and
Efficiency (CIGIE) Audit Committee, DCAA started the process of obtaining an outside
firm to perform its next peer review. DCAA stated that the peer review is to be
performed in FY 2013 and cover reports issued in FY 2012.

Impact of DCAA Corrective Actions from Prior Reviews on
Reviewed FY 2010 Assignments
Prior GAO and DOD Inspector General (IG) reviews of DCAA reports identified
significant deficiencies in audit work, including poor supervision, inadequate
documentation, inappropriate changes to report opinions, and lack of sufficient testing to
support report opinions. To address audit quality issues, DCAA implemented various
corrective actions such as revised supervisory training; a required computer-based
training course on working paper documentation; required training on GAGAS;
revamped audit programs; and issuance of revised guidance on variable and attribute
sampling with relevant training modules. DCAA had not completed all of its planned
corrective actions in time to impact work performed prior to FY 2009. DCAA performed
most of the field work on the engagements we reviewed prior to FY 2009 even though
DCAA issued the reports in FY 2010.




                                             4
DOD IG Continuous Monitoring of DCAA Audit Activities
The Inspector General Act of 1978, as amended, Sections 4(a)(1) and 8(c)(6), direct the
DOD IG to develop policy, evaluate program performance, and monitor and evaluate
DoD auditor compliance with internal audit, contract audit, and internal review
principles, policies, and procedures. To carry out these responsibilities on DCAA audit
activities, the Office of the Assistant Inspector General for Audit Policy and Oversight
performs oversight reviews of high-risk DCAA audit areas and quality assurance
evaluations of DCAA attestation engagements and audits. We also conduct various
ongoing activities covering DCAA that include monitoring:

     •   training,
     •   implementation of agreed-to corrective actions,
     •   draft or final contract audit policy issuances,
     •   results from DCAA internal quality assurance reviews, and
     •   results of DCAA internal review directorate evaluations.

General Standards
Professional Judgment
Failure to Exercise Sufficient Professional Judgment
In 37 of the 50 assignments (74 percent) reviewed, the audit staff 10 did not exercise
professional judgment as evidenced by deficiencies identified in multiple standards areas.
The 37 assignments had a high number of deficiencies, ranging from 6 to 9 deficiencies
out of 9 standards areas excluding professional judgment. Table 2 summarizes the
deficiencies identified by each region and Field Detachment. Appendix B summarizes
the results by individual assignment. Both tables and the following report sections on
individual standards demonstrate a pattern of noncompliance spread among all regions
and Field Detachment, and among all engagement types.




10
  Audit staff includes all DCAA employees categorized in the Government 0511 Auditor job series and,
for purposes of this report section, includes auditors assigned to the audit office, supervisory auditors, audit
office managers, auditors assigned to regions and headquarters, and regional or detachment audit managers
who worked on the reviewed assignments.


                                                       5
     Table 2. Number of Noncompliances Identified by Region or Field Detachment for
                           Each Overall Standard Assessed
  Standard         Central Eastern Northeastern  Mid-    Western   Field    Total No.
                   Region Region     Region     Atlantic Region Detachment Assignments
                                                Region                     Not Meeting
                                                                            Standards
Professional
Judgment              5        5          8           7         8           4            37
Independence          1        2          -           2         -           -            5
Competence            -        -          -           1         2           2            5
Quality               7        8          9           8         9           5            46
Planning              6        5          6           6         7           4            34
Communication         9        9          9           9         9           5            50
Evidence              6        5          8           8         8           4            39
Documentation         5        5          7           6         7           4            34
Supervision           6        6          8           8         9           4            41
Reporting             5        5          8           7         8           4            37

    Our review results indicate a higher rate of noncompliance with professional judgment
    standards than the FY 2010 DCAA internal quality assurance directorate’s review results
    of 50 percent of assignments not demonstrating professional judgment. Additional
    information on the DCAA internal quality assurance review results is included in the
    ‘Quality’ section of this report.

    Recommendations, Management Comments, and Our
    Response
    We recommend that the Director, Defense Contract Audit Agency:

           1. Direct each audit office to take the headquarters-determined corrective
              action(s) for assignments listed in Appendix B as not demonstrating
              professional judgment. Corrective actions might include:

              a. Rescinding the reports and notifying those who received the reports not
                 to rely on them or performing additional work and supplementing the
                 original report, whichever action is most appropriate depending on how
                 contracting officers are using or relying on the report or information in
                 the report.

    DCAA Comments
    DCAA agreed in principle stating that after obtaining additional information from DOD
    IG on the noncompliances with GAGAS, DCAA would assess the circumstances for the
    reports not demonstrating professional judgment and determine the appropriate actions in
    each circumstance by June 30, 2013.



                                                6
       b. Inserting into the engagement or audit documentation file a
          memorandum stating that the engagement or audit did not comply with
          government auditing standards, the work should not be relied on for
          other engagements or audits, and the assignment should not be used as an
          example to perform other engagements or audits.

DCAA Comments
DCAA agreed stating that DCAA would include a memorandum in the audit file for
those assignments not demonstrating professional judgment by December 31, 2012.

       c. Reviewing the deficiencies identified in the various assignments and
          taking appropriate corrective actions regarding the audit staff involved to
          include additional training when warranted.

DCAA Comments
DCAA agreed in principle stating that since FY 2009, DCAA has taken actions to
improve audit quality and reduce noncompliances. For instance, all audit staff, including
those involved in the assignments not demonstrating professional judgment, received
extensive training to promote compliance with GAGAS. DCAA also stated that it will
continue to provide additional training with emphasis on improving audit quality. DCAA
considers actions already taken related to this recommendation to be complete.

Our Response
DCAA comments were responsive. No additional comments are needed.

   2. Re-emphasize the importance of compliance with government auditing
      standards and applicable Defense Contract Audit Agency policies and
      procedures through issuance of alerts or other appropriate memorandums
      detailing the various deficiencies identified, causes, and corrective actions to
      be taken by all audit offices.

DCAA Comments
DCAA agreed in principle. DCAA stated that since FY 2009, DCAA took, and will
continue to take, significant steps to improve audit quality including issuing a significant
number of guidance memorandums and providing extensive training. DCAA listed
various completed and in-process efforts, which included various training initiatives,
workshops and conferences, and guidance memorandums or audit alerts on recurring
issues found during quality assurance reviews, sampling policy, contractor notification
letters, performing sufficient testing, and denial of access to records. DCAA considers
actions taken in response to this recommendation to be complete.




                                             7
Our Response
DCAA comments were responsive. No additional comments are required.

Independence
Independence Questioned
GAGAS 3.03 and 3.10 require the auditor and the audit organization to be free from
personal, external, and organizational impairments to independence, and to avoid the
appearance of such impairments. We identified issues with independence in fact or
appearance on an external level in 4 of the 50 assignments reviewed. We also identified
an impairment on one assignment caused by undue influence resulting in failure to
exercise professional judgment. For an additional four assignments, we were unable to
determine whether a personal impairment existed because DCAA did not provide the
detailed information identifying the specific personal impairments submitted by six
auditors who worked on the four assignments. Also, in one assignment, a DCAA audit
office’s verbal agreement with a contractor could result in restricted access to a document
needed for another DCAA engagement.

External Impairments Identified
External impairments in fact or appearance existed in four of the assignments reviewed.
GAGAS 3.10 requires audit organizations to be free from external impairments to
independence. Factors external to the audit organization may restrict the work or
interfere with the auditors’ ability to form independent and objective opinions, findings,
and conclusions.

   •   For Assignment Number 1721-2009B14980001, the supervisory auditor allowed
       the contractor to improperly influence the examination engagement. This
       engagement involved the review of a contractor’s indirect and other direct cost
       internal control system, which processed $708 million in FY 2007. The
       supervisor told the senior auditor and technical specialist to supersede working
       papers documenting unallowable travel cost identified during a review of the
       travel expense reports because the contractor complained. The contractor
       objected to DCAA citing a deficiency because the travel costs had not yet gone
       through the contractor’s review process for unallowable costs prior to certification
       of its incurred cost submission. DCAA should have still cited the contractor for
       an internal control deficiency because controls should exist in the travel system to
       screen out the majority of unallowable costs. The contractor should not rely on its
       screening process prior to certifying its incurred cost submission as the primary
       internal control against claiming unallowable costs. Failure to address the
       deficiency resulted in the contractor potentially billing unallowable costs on
       progress payments or using unallowable costs as a basis for proposals.
       Documentation of the supervisory auditor’s decision to supersede the working
       papers did not include information regarding the contractor’s objection.




                                             8
         Decisions of this importance based, in whole or part, on contractor verbal or
         written objections or additional information provided must be properly
         documented in the working papers.

     •   In a pre-award accounting system examination engagement of a small contractor
         with $510,000 in sales, Assignment Number 6431-2009B17740013, the
         contractor attempted to control what the auditor reviewed by providing inaccurate
         or incomplete information and, therefore, restricted the work. The contractor
         stated that DCAA had performed an accounting system review in 2006.
         However, DCAA was unable to locate that assignment or any evidence that the
         assignment was requested, scheduled, or performed. When requested to provide
         information on its Government contracts, the contractor never listed its
         subcontracts on the U.S. Navy and Department of Homeland Security contracts.
         The auditor never independently verified the contractor’s sales nor its contracts or
         subcontracts even though this information would be used to select vouchers for
         review in the engagement. In accepting the contractor’s sales and contract
         information without independent verification, the auditor did not consider that the
         contractor previously provided the auditor inaccurate information by erroneously
         telling the auditor that DCAA had already performed an accounting system
         review. Using incomplete information, the auditor selected a less representative
         project, a grant, to trace costs through the contractor’s accounting system. The
         auditor allowed the contractor to improperly influence the engagement scope
         resulting in an impairment to independence. GAGAS 3.10b describes an external
         impairment as including situations where external interference with the selection
         or application of audit procedures or in the selection of transactions to be
         examined occurs.

     •   During a control environment internal control system examination engagement 11
         of a contractor with FY 2009 sales of $674.4 million, Assignment Number 3311-
         2008C11070001, the contractor redacted information on 80 out of 85 contractor
         internal hotline cases, rendering the information useless to the auditor. The
         auditor required the redacted information in the internal hotline case reports to
         perform procedures key to the engagement objectives. GAGAS 3.10d describes
         an external impairment as situations where an externally imposed restriction on
         access to records occurs. Without access to all the information regarding the
         internal hotline cases, the auditor is unable to evaluate the thoroughness of the




11
   The control environment sets the tone of an organization and influences the way a contractor structures
its business activities, sets its objectives, and assesses its risks. A review of the control environment
evaluates key components such as integrity and ethical values, organization structure, assignment of
authority and responsibility, human resources policies and procedures, management philosophy and
operating style, and board of directors or audit committee participation. Integrity and ethical values
includes a contractor’s business ethics and its compliance or self-governance program. Contractor internal
hotline reviews or inquiries are part of its compliance program.


                                                    9
         contractor’s internal reviews and any corrective actions taken. This step is key to
         determining whether the contractor’s ethics program is operating effectively and
         in compliance with Government acquisition regulations. 12

     •   During the examination engagement of $1.2 million charged to a Mentor Protégé
         contract, Assignment Number 1661-2009H17900002, the auditor sent the draft
         report to the requester to provide comments on: (i) the DCAA interpretation of the
         Mentor Protégé Program guidance used to identify questioned costs; (ii) areas in
         the report requiring additional information; and (iii) the content and format of the
         report. DCAA auditors routinely check with the requester or other contracting
         officials to obtain information on contract terms or other criteria used in the
         engagement. However, the auditor must be careful that DCAA makes the final
         decision regarding how the criteria are interpreted and applied during the
         engagement and in the report. GAGAS 3.10g describes an external impairment as
         situations where an external party inappropriately influences the auditor’s
         judgment as to the appropriate content of the report. When the DCAA audit staff
         asked the requester to comment on the DCAA interpretation of the Program
         guidance as criteria for identifying questioned costs, the audit staff provided the
         requester the opportunity to inappropriately influence the report findings and
         content. This created the appearance of an external impairment.

External Impairment Possible Due to Audit Office Decision
During a budget and planning system examination engagement, Assignment Number
4301-2009H11020002, the contractor limited access to its long range strategic plans by
granting only one DCAA auditor access to the document. The DCAA audit office
conducting the review believed that agreeing to the contractor’s access restrictions did
not negatively impact its review or cause an impairment to independence. However, the
contractor representative stated during discussions that the contractor wanted to restrict
all DCAA access to the document, not just access for this particular assignment, to one
auditor. DCAA guidance instructs the audit office not to enter into written agreements
with contractors on access to records procedures. Audit offices are also to notify, in
writing, a contractor when its documents containing policies or procedures for DCAA
access to records will impede the audit process. DCAA guidance does not address
situations where more than one audit office may require access to the same information.
Verbal access to records agreements should be coordinated with the DCAA audit office
cognizant of the corporate office to ensure that other audit offices’ access is not
negatively impacted. By not formally notifying the contractor that the agreement only
applied to this engagement, the audit office caused a potential access issue and
independence impairment in general.




12
  This assignment is also discussed in the Systemic Issue with Insufficient Evidence in Internal Control
System Reviews section of this report which provides additional information regarding the Government
acquisition regulation requirements for a contractor ethics program.


                                                    10
Missing Recusal Letters
For 6 of the 23 DCAA auditors who checked a box on the annual independence
statements indicating that an exception to personal independence existed, DCAA did not
provide the auditors’ written explanations identifying the specific details on the
impairment or situations where a personal impairment existed. 13 We were, therefore,
unable to determine whether a personal impairment existed on four assignments
reviewed. Four of the six missing exception or recusal documents explained exceptions
noted on a then-current FY 2010 independence statement. DCAA policy requires the
audit offices to maintain current independence statements in the personnel files kept by
the first level supervisor. Therefore, these four missing written explanations should have
been available and we could not verify whether the supervisor ever received details
regarding the exceptions from the auditors or considered the exceptions as required.
Additional information on deficiencies in the DCAA quality control procedure relating to
independence is discussed in the Quality section of this report.

Impairment Associated with Undue Influence from Financial
Liaison Advisor Nonaudit Service
In one assignment, we identified an impairment to independence created by another
DCAA component that provided nonaudit services. GAGAS 3.03 states that an auditor
and the audit organization must maintain independence so that their opinions, findings,
conclusions, judgments, and recommendations will be impartial and viewed as impartial
by objective third parties with knowledge of the relevant information. Auditors should
avoid situations that could lead objective, knowledgeable third parties to conclude that
auditors are not able to maintain independence and impartial judgment on all issues
associated with conducting the audit and reporting on the work.

During the planning of Assignment Number 6211-2009C13500003, which was set up as
a comprehensive labor examination engagement involving an offsite contractor location,
the DCAA headquarters financial liaison advisor 14 unduly influenced the engagement
scope. The audit staff assigned to perform the engagement is responsible for determining
the appropriate engagement scope, after considering the engagement’s objective and risk
factors. Acceptance of the DCAA headquarters financial liaison advisor’s opinion by the
acting supervisor resulted in the audit staff not properly designing procedures to detect an
identified fraud indicator – employees working less than 8-hours a day. The acting
supervisor initially determined that a comprehensive labor audit, instead of a floor check,


13
   Organizations may refer to the written explanations regarding an impairment to independence as
exception or recusal letters.
14
   The DCAA financial liaison advisor provides advisory audit services to DOD procurement and contract
administration offices by providing onsite accounting and financial advice to contracting officers,
negotiators, and buyers. Some financial liaison advisor duties and responsibilities include: facilitating
effective communication and coordination between procurement officers and auditors and providing advice
to the procurement office in connection with contractor’s cost representations and related matters, in
consultation with the cognizant DCAA audit office. DCAA financial liaison advisors report to and are
supervised by a headquarters DCAA component. DCAA considers financial liaison advisory services to be
a nonaudit service.


                                                   11
was needed to adequately address the requester’s concern that contractor employees were
not working full 8-hour days. The DCAA headquarters financial liaison advisor
overstepped his position’s assigned responsibilities when he disagreed with the acting
supervisor’s scope assessment in an e-mail pointing out how the objectives of a floor
check would address the requester’s needs. A main function of the DCAA headquarters
financial liaison advisor is to facilitate effective communication and coordination
between a requester and the audit staff assigned to perform the engagement. The DCAA
headquarters financial liaison auditor did not properly perform this function when he did
not explain to the requester the acting supervisor’s concerns and need to expand the
engagement scope. DCAA emphasizes to the audit offices the importance of meeting the
requester’s needs and audit offices place great importance on a financial liaison advisor’s
opinions concerning the appropriate engagement scope needed to satisfy the request. The
DCAA headquarters emphasis on meeting the requester’s needs combined with the fact
that financial liaison advisors are part of a headquarters directorate, influenced the acting
supervisor’s decision on the appropriate scope even though the financial liaison advisor
was not in the supervisor’s management chain of command. In the end, the DCAA
headquarters financial liaison advisor caused an impairment to independence by
improperly influencing the acting supervisor causing her to compromise her professional
judgment in planning and conducting the engagement

Revised Finding and Deleted and Renumbered
Recommendations
We revised the draft finding related to an impairment associated with a nonaudit service,
which was originally identified as an organizational impairment. Also, as a result of
management comments, we deleted draft Recommendation 4 and renumbered the
remaining recommendations accordingly. The Director, DCAA, stated that the existing
guidance on denial of access to records was sufficient and he saw no benefit to revising
guidance to address one particular instance. As part of our continuous monitoring
responsibilities, we will monitor access to records issues to ascertain whether DCAA has
any systemic issues related thereto.

Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   3. Emphasize to the audit staff the importance of reporting and elevating all
      access to records issues following the established DCAA process and
      procedures.

DCAA Comments
DCAA agreed in principle. DCAA stated that DCAA included a presentation on access
to records issues in the Training Initiative on Performing Quality Audits given between
December 2010 and April 2011 and also revised the annual independence on-line CMTL


                                             12
[Computer Managed Training Library] Course No. 9022 to emphasize the importance of
following procedures for access to records issues in September 2010. In addition, DCAA
stated that DCAA issued guidance on access to records issues dealing with attorney-client
privilege or attorney-work-product doctrine assertions. DCAA considers actions taken to
address this recommendation as complete.

Our Response
DCAA comments were responsive. On September 20, 2012, DCAA provided us with
CMTL Course No. 9022, Independence Training, which covers access to records issues.
No additional comments are required.

Competence
Lack of Professional Judgment Evidenced by Significant
GAGAS Noncompliances
The abundance of noncompliances with standards identified in the 37 assignments
evidences the need for improvements in the area of competence at DCAA. GAGAS 3.33
recognizes that competency and professional judgment are interrelated because
judgments made are dependent on the auditors’ competence. GAGAS 3.40 requires that
the staff assigned to perform the audit or attestation engagement must collectively
possess adequate professional competence for the tasks required. GAGAS 3.42 further
emphasizes that competence enables an auditor to make sound professional judgments.
Finally, GAGAS 3.45 requires auditors who perform attestation engagements to be
knowledgeable about the applicable AICPA attestation standards and to be competent in
applying them. The abundance of noncompliances with standards could have resulted
from the need for improvements in education, training, experience, supervision,
guidance, or skills.

In September 2008 and October 2009, Congress held hearings on the results of GAO and
IG reviews of two Western region audit offices. Both GAO and the IG provided written
products to DCAA on these issues before the hearings. In September 2008, DCAA
revised its performance metrics eliminating metrics associated with set budgeted hours
and the production culture previously emphasized by DCAA management. In
December 2008, DCAA eliminated any language suggesting that the audit office consider
programmed hours when establishing budgeted hours for an assignment.

Also, in September 2009, GAO emphasized the root cause of the DCAA audit failures
was a production-oriented environment where the policies, procedures, and training
focused on audit quantity instead of audit quality. DCAA performed much of the field
work on the assignments we reviewed prior to September 2009 and the reports were
issued from October 2009 through March 2010. DCAA stated that in FY 2010 DCAA
was making substantial efforts to shift their policies, procedures, training, and culture
from a focus on production to a focus on audit quality. Therefore, the reviewed
assignments could still evidence the residual effects of the production-oriented
environment. Our report includes recommendations for improvements needed in audit



                                            13
quality, collective staff competence and organizational culture. These recommendations
are in addition to or build on the corrective actions already taken by DCAA to improve
the quality of its work and its work environment.

Continuing Professional Education Requirements Met But Not
Sufficient to Ensure Quality Work
Compliance with the quantitative GAGAS requirements for continuing professional
education did not result in DCAA auditors performing quality work in compliance with
GAGAS. DCAA auditors consistently did not apply key auditing concepts required by
professional standards as explained in the Professional Judgment; Planning; Evidence;
Documentation; Fraud, Illegal Acts, Violations of Provisions of Contracts or Abuse; and
Supervision sections of this report. The abundance of noncompliances identified by our
review call into question the effectiveness of the DCAA training curriculum, including its
delivery methods.

GAGAS 3.46 requires auditors performing work under GAGAS to obtain, every 2 years,
the following continuing professional education:

   •   at least 24 hours directly related to government auditing, the government
       environment, or the specific or unique environment in which the audit
       organization operates;
   •   56 additional hours that enhances the auditor’s professional proficiency to
       perform audits or attestation engagements; and
   •   at least 20 hours in each year of the 2-year period.

Our review of DCAA compliance with continuing professional education requirements
did not identify deficiencies in meeting the GAGAS requirements for a minimum number
of continuing professional education hours in various general categories. We identified
only a few instances where auditors did not take training specified as mandatory by
DCAA management. The abundance of noncompliances with GAGAS identified in our
review, however, indicates that the qualitative aspects of the DCAA training program
need revamping.

As mentioned previously in this report, DCAA has taken corrective actions regarding the
training provided to its audit staff to improve audit quality. However, DCAA
management needs to accurately assess the audit staffs’ skill needs as required by
GAGAS 3.41 and to critically analyze the DCAA process for providing needed training,
supervision, guidance, experience, and appropriate skills. DCAA should perform a
thorough analysis of its course curriculum, taking into account any changes already
made, to identify appropriate areas where the individual and collective competency of its
staff needs to be enhanced. DCAA should also consider outside sources for core training
in various areas including, but not limited to, government auditing standards, internal
controls and related systems reviews, and AICPA attestation standards. Training from
outside sources should enhance, not replace, DCAA-provided training. Training geared
to more generalized audit environments or topics would complement DCAA-specific
training by providing a stronger foundation for DCAA auditors to understand general


                                           14
auditing and accounting concepts. In addition, DCAA should use a variety of delivery
methods to increase the successful transfer of knowledge from the classroom to the actual
audit environment. Finally, to increase the effectiveness of the various training methods,
DCAA should consider increasing the amount of on-the-job training provided by
experienced auditor-coaches from both outside and inside the organization.

Inexperienced Auditors Inappropriately Assigned to Complex
Engagements
In 3 of the 50 assignments reviewed, auditors with limited experience or training were
assigned to complex engagements. In two assignments, 15 the auditors either did not
possess the knowledge and skills required or did not receive appropriate supervision
reflective of their limited experience to adequately perform the assignment. In the other
assignment, 16 increased supervisor and audit manager involvement made up for the lack
of experience and training of the audit staff. GAGAS 3.33 discusses the interrelationship
between professional judgment and competence because auditors’ judgments are
dependent upon the auditors’ competence. GAGAS 3.36 further links the determination
of whether professional judgment was demonstrated in an engagement to the
appropriateness of the consideration of the collective experience, training, knowledge,
skills, abilities, and overall understanding required by the audit team and its members to
properly perform the engagement. Without the appropriate mix, the audit team will not
be able to properly assess the risks that the subject matter under audit may contain a
significant inaccuracy or could be misinterpreted. Therefore, DCAA used inexperienced
auditors under limited supervision, which contributed directly to the audit teams not
demonstrating professional judgment. DCAA use of inexperienced auditors and the
associated lack of professional judgment also led to the noncompliances identified in the
assignment with key standards such as planning, evidence, documentation, and
reporting. 17 In addition, two of the three assignments were forward pricing examination
engagements. One engagement was for a $98.8 million firm-fixed-price proposal and the
other engagement reviewed $16.6 million in travel and other direct costs for a $30.8
million cost-plus-fixed-fee proposal. GAO identified an issue with auditor trainees being
inappropriately assigned to complex forward pricing audits. 18




15
   The two assignments numbers are 6211-2009C13500003 and 9861-2009P21000019. Both were
examination engagements.
16
   Assignment Number 9761-2009T2700040 was an examination engagement.
17
   GAGAS noncompliances identified for several standards led to an overall assessment of the assignments
not meeting professional judgment. For details regarding the noncompliances, see the sections of this
report that discuss each standard. Additionally, the schedule in Appendix B summarizes the overall
noncompliances by individual assignment.
18
   The finding is described in Case 8 on page 22 of GAO Report No. GAO-08-857, “DCAA AUDITS:
Allegations That Certain Audits at Three Locations Did Not Meet Professional Standards Were
Substantiated,” July 22, 2008.



                                                   15
Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   4. Improve the effectiveness of Defense Contract Audit Agency training by:

       a. Performing a comprehensive review and analysis of the Defense Contract
          Audit Agency continuing professional education training program,
          including course curriculum, content and delivery methods, to identify
          appropriate areas for enhancement of the individual and collective
          competency of its staff.

DCAA Comments
DCAA agreed in principle stating that DCAA integrated its training on GAGAS and
AICPA standards into several training courses and reviewed all Defense Contract Audit
Institute courses to ensure GAGAS requirements are addressed when applicable. The
DCAA Advisory Council on Learning and Talent Development’s review of the Defense
Contract Audit Institute curriculum, delivery methods, and locations was to be finished
by September 30, 2012. DCAA plans to determine which recommendations from this
review should be implemented and take the appropriate actions at a date to be
determined.

Our Response
Management comments were responsive. No additional comments are required.

       b. Using outside sources for certain core training courses to supplement
          existing Defense Contract Audit Agency training courses in various areas,
          including but not limited to, government auditing standards, internal
          controls and related systems reviews, and American Institute of Certified
          Public Accountants attestation standards.

DCAA Comments
DCAA agreed in principle stating that the Defense Contract Audit Institute already uses
external sources to assist in developing course content tailored for the contract audit
environment and provided several examples. DCAA considers the action to address this
recommendation complete. On September 19, 2012, DCAA stated that auditors are
encouraged to take outside training and subsequently provided a list of external courses
taken by auditors in FY 2012. DCAA further clarified that it did not want to designate
external courses as “core” or required courses.

Our Response
DCAA comments were responsive. No additional comments are required.


                                           16
       c. Performing an analysis for the implementation of a robust on-the-job
          coaching program to provide auditors and supervisors more hands-on
          training regarding proper application and interpretation of government
          auditing standards and related American Institute of Certified Public
          Accountants attestation standards.

DCAA Comments
DCAA agreed in principle. On August 1, 2012, DCAA announced a 3 to 4 month pilot
coaching program of 100 nonbargaining unit employees. The objective of the coaching
program is to assist less experienced auditors in improving their technical skills and
performance. DCAA will deploy the coaching program agency-wide after incorporating
feedback from the pilot test and after completing negotiations with the Union. DCAA
considers the action taken to address this recommendation as complete.

Our Response
DCAA comments were responsive. No additional comments are required.

Quality Control and Assurance
Aspects of DCAA Quality Control System Ineffective
In 46 of the 50 assignments reviewed, the DCAA quality control system was ineffective
in ensuring that its attestation engagement and performance audit assignments complied
with applicable professional standards. GAGAS 3.50a requires that an audit organization
performing work in accordance with government auditing standards, establish a quality
control system designed to provide the audit organization with reasonable assurance that
the organization and its personnel comply with professional standards and applicable
legal and regulatory requirements. GAGAS 3.35 provides that using professional
judgment in all aspects of carrying out professional responsibilities, including
maintaining appropriate quality control over the assignment process, is essential to
performing and reporting on an engagement. The need for improvement in the DCAA
quality control system was evidenced by the deficiencies identified in multiple standards
areas; in engagements performed in all regions and Field Detachment; and in all
engagement types reviewed. Numerous deficiencies are further explained in other
sections of this report.

DCAA Quality Assurance Program
The DCAA headquarters Quality Assurance Directorate performs the GAGAS-required
monitoring function as part of the overall DCAA quality control system as described in
DCAA Instruction No. 7640.20, “DCAA Audit Quality Control and Assurance Program,”
dated March 11, 2011. In FY 2010, the DCAA Integrity and Quality Assurance
Directorate reviewed 28 audit offices and 465 assignments. GAGAS 3.50 requires audit
organizations to establish policies and procedures in its system of quality control to
address: (1) audit and attestation engagement performance, documentation, and reporting;
and (2) monitoring of quality. Monitoring is an ongoing, periodic assessment of audit


                                           17
and attestation engagements designed to provide management of the audit organization
with reasonable assurance that the policies and procedures related to the system of quality
control are suitably designed and operating effectively in practice. Monitoring is most
effective when performed by individuals who do not have responsibility for the specific
activity being monitored. The DCAA internal quality assurance program is to cover
GAGAS-covered audit work from approximately one-third of the DCAA audit offices in
each year of a given 3-year period. The annual review plan is to ensure that:

     •   the number of audit offices and assignments reviewed will provide sufficient data
         to establish DCAA’s overall level of compliance with GAGAS and DCAA
         policy;
     •   each audit office is eligible to be selected for a DCAA headquarters internal
         quality assurance review;
     •   the majority of the audit offices will actually undergo such a review within each
         3-year planning cycle;
     •   all types of DCAA assignments with reports issued and performed in accordance
         with GAGAS will be included in the universe of assignments to be reviewed; and
     •   significant coverage of the different assignment types should be provided, while
         still providing sufficient data on any one type to enable meaningful conclusions to
         be drawn with regard to DCAA’s level of compliance with a particular GAGAS
         requirement.

DCAA Instruction No. 7640.20 provides additional guidance and information on how the
DCAA Integrity and Quality Assurance Directorate should perform its internal quality
assurance reviews. The DCAA Integrity and Quality Assurance Directorate performs: (i)
formal internal quality assurance reviews based on guidelines established by the CIGIE;
and (ii) quality assurance-related review projects performed on a DCAA-wide basis.
When performing these reviews, the DCAA Quality Assurance Directorate assesses
compliance with applicable auditing standards and DCAA audit policies and procedures.

DCAA Quality Assurance Reviews Identified Significant
Deficiencies in DCAA Attestation Engagements
During its internal quality assurance reviews of FY 2010 assignments, the DCAA
Integrity and Quality Assurance Directorate determined that 50 percent of all assignments
that it reviewed did not demonstrate professional judgment. The FY 2010 DCAA
internal quality assurance reviews found that 50 percent of the reviewed assignments
demonstrated a lack of professional judgment. The DCAA review results are lower than
our finding of a 74 percent noncompliance rate for assignments performed during the
same time period. 19 A summary of the FY 2010 DCAA Integrity and Quality Assurance
Directorate review results are detailed in Table 3.

19
   One difference between our scope of review and the DCAA internal quality assurance program reviews
was that our review included assignments performed by DCAA Field Detachment offices in addition to all
five regions. The DCAA internal quality assurance reviews excluded Field Detachment assignments
during the first half of FY 2010, but covered assignments from all five regions and Field Detachment for
the second half of FY 2010.


                                                   18
       Table 3. FY 2010 DCAA Quality Assurance Review Results on Compliance with
                     Professional Judgment Standard by Time Period
       DCAA Quality Assurance              Number of     Number of   Number of        Assignments
             Reviews                         Audit      Assignments Assignments       Reviewed Not
                                            Offices      Reviewed    Reviewed           Meeting
                                           Reviewed                 Not Meeting       Professional
                                                                    Professional       Judgment
                                                                     Judgment           Standard
                                                                     Standard
1st Half FY 2010 (October through March)      13            219          92             42 percent
2nd Half FY 2010 (April through               15            246         142             58 percent
September)
FY 2010 Results                               28            465            234          50 percent

     For the second half of FY 2010, the DCAA Integrity and Quality Assurance Directorate
     reviews found an increase in the number of assignments not meeting the professional
     judgment standard from 42 percent to 58 percent. Based on the DCAA quality assurance
     review results, the Director, DCAA, determined that the audit offices needed additional
     training on compliance with GAGAS. From November 2010 to April 2011, the DCAA
     Integrity and Quality Assurance Directorate provided additional GAGAS training to all
     audit offices, regional offices and Field Detachment headquarters staff. We will assess
     the effectiveness of this training during future reviews.

     Inadequate Quality Control Procedures for Documentation of
     Personal Impairments
     We identified implementation deficiencies relating to documentation of personal
     impairments in 46 percent, 23 of the 50 reviewed assignments. DCAA quality control
     procedures for documenting and determining potential or actual impairments to personal
     independence were either not properly designed or did not operate effectively to ensure
     compliance with GAGAS requirements. As a result, we were unable to determine
     conclusively whether auditors who worked on the reviewed assignments had any
     personal impairments associated with the assignments. GAGAS 3.52 requires an audit
     organization to document compliance with its quality control policies and procedures and
     to maintain the documentation for a period of time sufficient to enable others to evaluate
     the extent of the audit organization’s compliance with its quality control policies and
     procedures. GAGAS 3.53b lists policies and procedures designed to provide reasonable
     assurance that the audit organization and its personnel maintain independence as needed
     for its quality control system.

     DCAA policy for documentation of personal independence required: (1) audit staff to
     complete the Statement of Independence (DCAA Form 7640-2) each year after
     completing annual independence training; (2) Regional Directors to certify annually that
     mandatory training and signing of Statements on Independence had occurred; (3) audit
     offices to maintain the most current Statements on Independence in the audit staff


                                                 19
personnel records maintained by the first level supervisor; (4) all newly hired auditors to
complete the training and independence statement prior to working on an assignment; and
(5) an auditor to notify the appropriate DCAA management official, in writing, of any
exception. The policy does not provide a separate form or specific place on the
independence statement form for the audit staff to document, describe, or explain the
exceptions when the exception box is checked. DCAA should revise its guidance or
Statement of Independence form to do so.

We identified deficiencies in the design and implementation of the quality control
procedure for documenting personal impairments to independence, impacting 23 of the
50 reviewed assignments. Of the 309 audit staff members that worked on the reviewed
assignments, we did not receive:

     •   any independence statements for 19 audit staff members;
     •   the current FY independence statements for 6 audit staff members; and
     •   properly filled in independence statements for 19 audit staff members. This
         included statements where the independence status boxes were not marked; the
         supervisor did not sign the statement; and recusal or exception letters or some
         type of written description of the exception were not provided as previously noted
         above in the Independence section of this report.

Additionally, 10 of the 309 audit staff members were newly hired auditors. 20 Fifty
percent of the newly hired auditors, 5 out of 10, did not fill in the required independence
statements prior to starting the reviewed assignment. In one case, a newly hired auditor
did not complete the independence statement until 2 months after report issuance, and
7 months after being hired and completing the independence training. DCAA should
perform an assessment of its on boarding process and associated management oversight
and controls over completion of the Statements of Independence to determine how to
better ensure that newly hired auditors submit a completed Statement of Independence as
soon as possible after starting to work with DCAA as required by its quality control
policies and procedures in its Contract Audit Manual (CAM).

Changes to Procedures Should Improve Compliance with
GAGAS
In March 2010, the DCAA Integrity and Quality Assurance Directorate briefed us that
they communicated concerns to DCAA management that audit offices were only keeping
the current independence statement. Therefore, all of the needed independence
statements were not available when the reviewed assignments carried over from prior
fiscal years. 21 On August 2, 2011, DCAA issued Memorandum for Regional Directors
(MRD) 11-PAS-013, “FY 2011 Annual Training on the Generally Accepted Government
Auditing Standards (GAGAS) Independence Standards,” modifying the previous DCAA


20
  Newly hired auditors are auditor-trainees who have worked for DCAA for 1 year or less.
21
  Twenty-five of the 50 assignments we reviewed required independence statements from more than
1 year.


                                                 20
requirements pending the overall reassessment of independence documentation
procedures. Audit offices are now to maintain not only the most current independence
statements, but also annual independence statements from prior years that were filed in
the audit staff personnel records maintained by the first-level supervisor. DCAA revised
the process to ensure that the required independence statements are available for internal
and external reviews. However, this guidance still does not address documenting written
explanations provided by an auditor to the first-level supervisor for any identified
exceptions. Therefore, additional improvements are needed to ensure that the related
exception letters or written explanations are also maintained and available for reviewers.
As noted above, DCAA is currently evaluating their overall policies for documenting
independence. We will assess the effectiveness of the procedural change and any other
policy changes in future reviews.

Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   5. Revise guidance on maintaining Statements of Independence to specify that
      all written explanations describing exceptions to personal independence
      provided to the first-level supervisor must also be maintained for the same
      period of time as the Statements.

DCAA Comments
DCAA agreed in principle stating that DCAA will revise policy so Statements of
Independence are only applicable to a particular assignment and the associated contractor
and will not include independence issues related to other contractors. DCAA stated it
would complete this action by June 30, 2013.

Our Response
DCAA comments and subsequent actions are fully responsive to the intent of the
recommendation. On November 16, 2012, DCAA included a reminder in its FY 2013
announcement of annual training on GAGAS Independence Standards to retain annual
independence statements from prior years and to attach any personal recusal letters to the
independence statements. No additional comments are required.


   6. Perform an assessment of the new hire on-boarding process and implement
      the additional steps or controls needed to ensure that newly hired auditors
      complete independence training and submit a Statement of Independence
      within the first week of work at the audit office or prior to working on any
      assignment, whichever event occurs first.




                                            21
DCAA Comments
DCAA agreed in principle stating it would implement a consistent approach on the new
hire on-boarding process that will include training on GAGAS Independence Statements,
and require supervisors to explain auditor independence to the new hire to ensure they
complete a Statement of Independence prior to performing any audit work. DCAA stated
it would implement this process by December 3, 2012.

Our Response
DCAA comments were responsive. No additional comments are required.

DCAA Regional and Field Detachment Offices’ Quality Control
Procedures Need Improvement
The DCAA regional and Field Detachment quality control procedures were generally
ineffective in ensuring that attestation engagements and performance audits complied
with GAGAS and DCAA policies and procedures. The quality control procedures
including regional and Field Detachment management pre-issuance reviews varied
among regions and Field Detachment. The regional and Field Detachment pre-issuance
reviews did not identify significant noncompliances with GAGAS and resulted in the
regional or Field Detachment audit managers approving reports that should not have been
issued. In addition, the regions and Field Detachment management did not have adequate
procedures in place to ensure that audit offices complied with the regional and Field
Detachment quality control procedures for which the audit offices were assigned
responsibility.

Only 32 percent, 16 of the 50 reviewed assignments included a regional or Field
Detachment pre-issuance review of the report. Regional and Field Detachment
management is responsible for maintaining quality control systems to provide reasonable
assurance that auditors comply with professional standards and applicable legal and
regulatory requirements. To perform this function, regional and Field Detachment
directors issued instructions establishing regional or Field Detachment quality control
programs that assigned regional audit managers certain responsibilities which vary
among the different regions and Field Detachment. Quality control procedures
performed by regional audit managers include reviewing high risk assignments and
reports prior to their issuance, performing post-issuance reviews, or evaluating corrective
action plans submitted in response to DCAA quality assurance reviews. In addition, most
of the regions and Field Detachment quality control procedures require pre-release
reviews by regional technical specialists of specific assignment types either before or
concurrent with the regional audit manager reviews. However, the requirements for
regional or Field Detachment management pre-issuance reviews also vary considerably
between the regions and Field Detachment. Often whether a regional review is required
depends on the significance of the dollars examined or the dollar amount of the findings.

Regional management reviews when performed also were not an effective quality control
procedure to ensure that the engagements complied with GAGAS. Of the above 16
assignments in which regional or Field Detachment management reviewed and approved


                                            22
the report to be issued, we determined that 12 lacked professional judgment and DCAA
should not have issued those reports. For instance,

     •   A Central region regional audit manager approved the report issuance for an
         incurred cost examination engagement of $102 million. However, the regional
         audit manager did not identify and have the audit office remedy several
         significant deficiencies during the required pre-release review of the assignment
         and draft report. In particular, the regional audit manager’s review did not find
         that the auditor performed insufficient testing to support the opinion on claimed
         costs and that the report lacked several key qualifications. (Assignment Number
         3171-2006J10100002)
     •   Both the regional audit manager and the regional technical programs division
         performed required pre-release reviews of an examination of the indirect and
         other direct cost system at a major defense contractor with $3.4 billion in
         government sales. The regional audit manager commented in his approval e-mail
         that “the report looks real good.” However, neither regional quality control
         review identified critical noncompliances with GAGAS. For instance, the
         supervisory auditor allowed the contractor to improperly influence the scope of
         testing performed on unallowable costs; evidence was insufficient to support the
         report; documentation of work performed to support the reported conclusions was
         inadequate; and the auditor did not follow-up to obtain a formal written response
         from the contractor on the reported deficiencies. (Assignment Number 1721-
         2009B14980001)

Finally, 13 audit offices did not have an audit office instruction documenting quality
control policies and procedures as required by the respective regional or Field
Detachment quality control instruction. Audit office noncompliance with regional or
Field Detachment quality control procedures further weakened the effectiveness of such
procedures.

DCAA regional and Field Detachment management should reassess their quality control
programs and make revisions to increase the programs’ effectiveness at promoting and
ensuring audit quality. DCAA should consider establishing minimum requirements for
regional and Field Detachment quality control procedures to increase consistency and the
overall effectiveness of such procedures.

Limited and Ineffective Audit Office-Specific Quality Control
Procedures
DCAA audit offices had limited and ineffective audit office-specific quality control
procedures. Audit offices did not fully implement the use of participatory work team
member reviews 22 to improve compliance with GAGAS. Some audit offices also did not


22
  DCAA uses the term “peer review” to denote one team member’s review of another team member’s
assignment. Our report uses “participatory work team member review” when discussing this quality
control procedure to avoid confusion with the “external peer review” required by GAGAS 3.55.


                                                 23
comply with the GAGAS requirement to maintain documentation on compliance with its
quality control policies and procedures. Additionally, some audit offices did not comply
with their own or regional or Field Detachment quality control procedure requirements
further limiting the effectiveness of those procedures.

Only 24 of the 50 assignments reviewed required a participatory work team member
review. DCAA guidance provides that its basic system of quality control encompasses its
organizational structure. The guidance specifically includes participatory work teams as
part of the organizational structure at the audit office level. DCAA headquarters
encouraged audit offices to use participatory work teams to enhance the overall quality of
their working papers and reports by increasing compliance with GAGAS. A
participatory work team’s responsibilities can vary and include:

   •   establishing a participatory work team member review process for the working
       paper files and reports to incorporate the number and type of assignments subject
       to the team member review;
   •   determining the objectives and scope for the participatory work team member
       review;
   •   determining how the auditor performing the participatory work team member
       review is to document the review and its results; or
   •   discussing general recurring type errors and process improvements at team
       meetings.

Despite participatory work team member reviews, we still identified a significant number
of deficiencies and noncompliances with GAGAS. Our review determined that 12 of the
30 assignments with a documented participatory work team member review did not
demonstrate professional judgment. DCAA needs to reconsider the usefulness of the
participatory work team member review process as a quality control procedure.

In addition, 4 of the 24 assignments that required participatory work team member
reviews did not contain evidence of the required review or the audit office did not
provide us acceptable documentation that the required procedures had been performed.
GAGAS 3.52 provides that an audit organization should document compliance with its
quality control policies and procedures, and maintain the documentation so that other
reviewers can evaluate the extent of the organization’s compliance with its quality control
policies and procedures. Therefore, to comply with GAGAS, all audit offices need to
maintain such documentation.

Finally, audit offices did not comply with all their own required quality control
procedures or all the regional or Field Detachment management required procedures. As
mentioned above, not all audit offices had a required office quality control procedure. Of
the 50 assignments reviewed, 16 were performed at audit offices that also did not comply
with applicable region or audit office-required supplemental quality control procedures,
forms, or checklists for assignments.




                                            24
Independent Reference Review Requirement Implemented to
Improve Quality
DCAA implemented the use of independent reference reviews as a component of its
commitment to providing quality reports in compliance with applicable standards. On
July 25, 2011, DCAA issued guidance requiring audit offices to assign General Schedule
[GS] 13 audit staff to perform independent reference reviews for certain specified
engagements requiring a report as well as any assignments that pertain to sensitive,
controversial, complex, unusual, or significant matters. The guidance requires that all
independent reference review documentation be maintained in the working paper file.
We will review the implementation and its effectiveness in future reviews.

Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   7. Issue guidance directing regions, Field Detachment, and audit offices to fully
      comply with generally accepted government auditing standards
      paragraph 3.52 requirements to maintain documentation of all quality
      control procedures performed by the regions, Field Detachment, or audit
      offices such as participatory team member reviews or regional audit
      manager pre-release reviews, for a sufficient amount of time so that
      reviewers can evaluate the extent of their compliance with the relevant
      quality control procedure.

DCAA Comments
DCAA agreed in principle stating that the implementation of the DCAA independent
reference review policy and actions that will result from the in-process publication reform
initiative would address this recommendation. DCAA also stated that its publication
system reform initiative to review regional and Field Detachment quality control
publications to ensure consistency across the agency and eliminate publications that are,
or should be, addressed agency-wide would be completed by March 31, 2013.

Our Response
DCAA comments were responsive. No additional comments are required. As part of our
followup and monitoring responsibilities, we will consider whether the in-process
publication reform initiative fully satisfies the intent of this recommendation.


   8. Review existing audit office, regional, and Field Detachment quality control
      procedures to identify best practices or other possible quality procedures to
      be implemented that would be effective in ensuring audit quality and
      compliance with government auditing standards. The review should


                                            25
         consider establishing minimum standards for regional and Field Detachment
         quality control procedures, as well as audit office quality control procedures,
         to better ensure effective implementation of the DCAA quality control
         system.

DCAA Comments
DCAA agreed in principle stating that DCAA communicates best practices through
training, staff conference presentations, its Quality website, and in quality assurance
review reports. DCAA also stated it would complete its publication system reform
initiative, as discussed in response to Recommendation 7, by March 31, 2013.

Our Response
Management comments were responsive. No additional comments are required.

Examination Engagements
Planning
Deficiencies in Planning
Thirty-one (31) of the 47 reviewed examination engagements 23 did not comply with
GAGAS requirements for planning. Most deficiencies were caused by poor risk
assessments, incomplete identification of relevant criteria, failure to follow up on prior
review results, inadequate understanding of internal controls, and lack of coordination
with other auditors. GAGAS 6.04a. requires the auditor to adequately plan the work.
According to the AICPA standards for attestations engagements, planning involves
developing an overall strategy for the expected conduct and scope of the engagement.
The auditor should consider the nature, extent, and timing of the work to be performed to
accomplish the objectives of the engagement. During the planning process, an auditor
should consider the criteria to be used; preliminary judgment about risk and materiality;
the nature of the subject matter or the items within the assertion that are likely to require
revision or adjustment; conditions that may require extension or modification of
procedures; and the nature of the report to be issued.

Planning Deficiencies Identified with AICPA Attestation Standards
Table 5 provides examples of the deficiencies in DCAA engagement planning in relation
to the AICPA Attestation Standards incorporated into GAGAS.




23
  An examination engagement or examination provides positive assurance. GAGAS 1.23a states that an
examination “…[c]onsists of obtaining sufficient, appropriate evidence to express an opinion on whether
the subject matter is based on (or in conformity with) the criteria in all material respects or the assertion is
presented (or fairly stated), in all material respects, based on the criteria.”


                                                       26
                            Table 5. Examples of Planning Deficiencies
            Area                                        Planning Deficiencies Examples
Identification of              In eight examination engagements, the auditor did not identify the
Criteria to Be Used            appropriate criteria to be used in performing the engagement. This is a
                               repeat deficiency identified in our prior review of the FY 2006 DCAA
AT 24 101.45a                  quality control system. DCAA non-concurred with our previously
                               recommended corrective action to list specific criteria on the planning
                               documentation because they felt the existing DCAA guidance was
                               sufficient to comply with GAGAS.
                               • In an examination of billed mentor protégé costs of $1.2 million, the
                                   auditor identified numerous sources for criteria including the
                                   Department of Navy Mentor Protégé Program Procedures Manual,
                                   but failed to use the correct version of the manual. The auditor used
                                   the December 2008 instead of the May 2005 version in effect at the
                                   contract signing. The error was not identified until the contractor
                                   responded to the findings. The auditor verified that the requirement
                                   used to support the finding had not changed from the 2005 version,
                                   but did not verify whether any other provisions used as criteria were
                                   different. Additionally, the auditor did not include all pertinent
                                   contract terms in the contract brief to use as criteria. The oversight
                                   resulted in the auditor identifying an erroneous finding regarding
                                   lease purchase of equipment that was allowed by the contract.
                                   Incomplete or inaccurate criteria used during planning and not
                                   corrected during execution results in the auditor spending additional
                                   time to correct the preliminary findings. (Assignment No. 1661-
                                   2009H17900002)
Preliminary                    In nine examination engagements, the auditor did not adequately address
Judgments on Risk              the materiality and sensitivity of the engagement.
and Materiality                • During the examination of a large contractor’s billing system, the
                                   auditor did not complete the required Internal Control Audit Planning
AT 101.45b                         Summary working paper. The auditor should use this information to
                                   determine the appropriate risk level for planning the engagement.
                                   The audit office did not reconcile or address a significant discrepancy
                                   regarding the amount of dollars being processed through the billing
                                   system. The auditor stated in the risk assessment steps that the
                                   system processed approximately $34 million, but another working
                                   paper showed approximately $4.396 billion as being processed. One
                                   of the key factors for the level of internal control testing needed is the
                                   dollars processed through the system. (Assignment No. 2641-
                                   2009C11010001)
Sufficient                     In eight examination engagements, the auditor did not document all
Knowledge of                   relevant background information needed to adequately evaluate the
Events, Transaction,           subject matter of the engagements.



24
     The AICPA uses the designation of “AT” to reference the various attestation standards.


                                                      27
        Area                                  Planning Deficiencies Examples
and                  •      In a purchasing system examination of a contractor with $140 million
Practices/Background        in sales, the auditor stated in the working papers that they would
Information                 request organizational charts, pertinent records layout, database
                            source documents, information on the conversion of documents to
AT 101.44                   computer media, and a listing of files affected by the system.
                            However, the auditor never received the documents that were needed
                            to properly plan the engagement. (Assignment No. 1261-
                            2010A12030001)
Significant Changes     In five examination engagements, the auditor did not make the
                        appropriate changes to the planned work due to circumstances that arose
AT 101.45d &            in the engagement.
101.47                  • In a disclosure statement adequacy examination at a contractor with
                            sales of $320 million in 2008, the auditor acknowledged the
                            contracting officer’s request for a disclosure statement review for
                            adequacy and compliance; however, the auditor only performed an
                            adequacy review. The auditor did not document a reason for the
                            reduced scope of work, or inform the contracting officer of the
                            adjustment in planned work. Although the audit office stated a
                            compliance review would be done under a separate assignment, it was
                            never performed. Therefore, the Government cannot be certain that
                            the contractor is following its disclosed practice and not overcharging
                            contracts for the costs. (Assignment No. 9811-2009A19100001)
Nature, Extent, and     The auditor did not properly consider the nature, extent, and timing of the
Timing of the Work      work to be performed to accomplish the objectives of the engagement in
to be Performed to      seven examination engagements.
Accomplish the          • During a pre-award accounting system examination of a small
Objectives                  contractor with $510,000 in sales, the auditor did not properly define
                            the scope. The auditor failed to verify the listing of current contracts
AT 101.47                   and subcontracts provided by the contractor and, therefore, missed
                            including the contractor’s subcontracts with the U. S. Navy and
                            Department of Homeland Security. This omission unnecessarily
                            limited the scope of the engagement and resulted in the auditor
                            verifying costs to a project that was not representative of the type of
                            subcontract that was proposed. (Assignment No. 6431-
                            2009B17740013)

Planning Deficiencies Identified with GAGAS Specific Requirements
      Insufficient Follow up on Significant Issues. In 10 of the 47 examination
engagements, the auditor did not follow up on significant findings and deficiencies
identified in previous engagements. Specifically, the auditor did not use this information
in assessing risk and determining the nature, timing, and extent of current work, including
determining the extent to which testing the implementation of the corrective actions is
applicable to the current engagement objectives. GAGAS 6.09 states that auditors should
evaluate whether the audited entity has taken appropriate corrective action to address


                                            28
findings and recommendations from previous engagements that could have a material
effect on the subject matter. Examples of instances where the auditor failed to follow up
on significant findings and recommendations from previous engagements included:

      •   During an adequacy of disclosure statement examination engagement at a
          contractor with total sales of $320 million, the auditor did not follow-up on a
          Cost Accounting Standard noncompliance identified in another engagement.
          Specifically, the auditor stated that the noncompliance would be addressed in
          this engagement. However, the auditor did not perform any work to determine
          whether the noncompliance currently existed. This resulted in the audit office
          not performing work needed to opine, in the future, on the contractor’s general
          and administrative rate. (Assignment Number 9811-2009A19100001)
      •   During a $151.7 million incurred cost examination engagement, the auditor did
          not follow-up and report on expressly unallowable costs that were a significant
          portion of the $3.8 million in questioned indirect expenses identified in the
          subpackages 25 to this engagement. Because the auditor failed to follow-up and
          recognize the costs as expressly unallowable, penalties were not appropriately
          assessed against the contractor. (Assignment Number 9851-2005F10100014)

      Failure to Obtain a Sufficient Understanding of Internal Controls. In 9
of the 47 examination engagements reviewed, the auditor did not obtain a sufficient
understanding of internal controls to properly plan the examination engagement.
GAGAS 6.10 requires the auditor to obtain such an understanding of internal controls
material to the subject matter to plan the engagement and design procedures to achieve
the engagement objectives. An understanding of the relevant internal controls is needed
to determine the appropriate procedures to perform, the appropriate evidence needed, and
the required amount of testing. For instance, in an incurred cost examination engagement
of a contractor with $78 million in sales, the auditor did not complete the DCAA-required
internal control questionnaire which documents the auditor’s understanding of the
contractor’s basic internal controls. Without this information, the auditor cannot
complete and document a thorough risk assessment, and properly plan and execute the
engagement. Therefore, there is a potential for DCAA to have accepted and the
Government to have reimbursed the contractor for unallowable costs. (Assignment
Number 6161-2005A10100022)

      New Guidance for Documenting Understanding of Internal Controls. In
September 2011, DCAA issued new guidance revising its process for documenting
relevant internal controls to provide a better link between the risk assessment, including
the understanding of internal controls, and the decision of what procedures to perform.
DCAA issued the revised guidance to increase compliance with GAGAS 6.10 and
AT 601.45. As a first step in the revised process, the auditor should identify the


25
  Supervisory auditors have the flexibility to subdivide engagements into several assignments. When
done, one assignment is the overall engagement and the other related assignments become working paper
sections of the overall engagement assignment. The assignments that act as working paper sections are
sometimes called ‘subpackages’ to further distinguish them from engagement assignments.


                                                  29
significant cost elements or subelements (e.g., accounts or groups of accounts) or other
areas to be evaluated based on materiality and other inherent risk factors. Next, for each
of those areas, the auditor should:

     •   consider what potential noncompliances could occur;
     •   identify and document the key policies and procedures or internal controls over
         compliance;
     •   document previously reported deficiencies; and
     •   tailor the procedures accordingly to address the overall risk.

Previously DCAA documented the understanding of internal control primarily by
referencing work done in prior audits of contractor systems and related internal controls.
DCAA also created a new standard electronic working paper to document the revised
process with accompanying instructions for completing the working paper. These
revisions, however, will not impact all of our identified noncompliances with GAGAS
requirements on planning, particularly the noncompliances related to identifying and
documenting the relevant criteria and materiality and sensitivity factors. We have not
reviewed the implementation of the revised process, but we will monitor its
implementation and DCAA improvement in the areas of planning and risk assessment
through our continuous oversight of DCAA.

Planning Deficiencies Identified with DCAA Guidance
      Inadequate Coordination on Work Performed by Others. In 14 of the
47 examination engagements reviewed, the auditor did not adequately coordinate with
others. The DCAA CAM 4-1003, “Work Performed by Others,” states that an important
source of evidence is work performed by other DCAA or Government auditors, contract
administration officials, independent public accountants, contractor internal auditors and
non-auditors. Thus DCAA guidance emphasizes the importance of maintaining effective
communications with these groups, understanding their responsibilities, and knowing
when it is appropriate to request their assistance or rely on their work. Further,
coordinating with these groups can often provide additional evidence and avoid
duplication of effort.
      Coordination with Other DCAA Audit Offices. In 4 of the 14 examination
engagements, the auditor did not coordinate with other DCAA auditors. Due to the lack
of coordination, the auditor failed to obtain relevant evidence needed to afford a
reasonable basis for conclusions and recommendations. For instance, during a
$1.9 billion firm-fixed price/cost-plus-fixed-fee proposal examination, the auditor did not
request an assist audit 26 from the DCAA audit office cognizant of the proposed


26
  Assist audits occur when one DCAA auditor at one location is furnished assistance in the form of a
GAGAS-compliant engagement or audit by a DCAA auditor at another location. DCAA audit offices
perform work at contractor locations within a defined geographic location and a prime contractor may
include costs not supported by the books and records maintained at its geographic location. DCAA audit
offices generally perform assist audits on subcontracts, offsite labor, or on costs that are allocated from or
to records which are maintained at home offices, other divisions, segments, cost centers, etc. The DCAA


                                                      30
subcontract costs. The auditor stated that an assist audit of the $162 million subcontract
costs would be requested; however, the auditor failed to execute the request with no
explanation as to why this was not done. Therefore, DCAA accepted the $162 million in
proposed subcontract costs, possibly resulting in the Government paying the contractor
more than necessary on the subcontract. (Assignment Number 3531-2009L21000011)

      Work of Internal or External Auditors. In 10 of the 47 examination
engagements, the auditor did not appropriately consider procedures performed by
contractor internal or external auditors in determining the nature, timing, and extent of
the procedures to be performed. The DCAA CAM 4-202, “Relationships with Contractor
Internal and External Auditors,” states that when contractors make internal or external
reports available to DCAA, the auditor should review the reports to determine if there are
any reported items that need follow-up or affect in-process examinations. Due to this
lack of consideration, the auditor did not address the potential for opportunities in
planning and performing the examination in coordination with the external or internal
auditors to avoid duplication and reduce overall costs to the entity and the Government.
Examples of instances where the auditor did not consider procedures performed by
contractor internal or external auditors included:

    •    During a floor check examination engagement at a large contractor, the auditor
         did not request contractor internal audits of the labor system as required by the
         standard audit program. Instead, the auditor documented that a prior audit was
         qualified stating that it is contractor policy not to provide DCAA with its internal
         audit working papers. As a result, the auditor did not determine whether any
         relevant contractor internal audit reports existed and request them. The auditor
         should have used information in the contractor internal audit reports to determine
         whether additional risk factors, especially relating to potential fraud, existed.
         Without this information, the auditor was not sure that all appropriate procedures
         were performed. Refusal of a contractor to provide its internal audit working
         papers does not relieve the auditor from determining what internal audit reviews
         have been performed and obtain any information on them that the contractor is
         willing to provide. (Assignment Number 6211-2009C13500003)
    •    During an internal control examination of a labor accounting system that
         processed $81 million in 2008, the auditor obtained a copy of a contractor internal
         audit report which concluded that adherence to timecard and labor input controls
         remained inadequate. The auditor failed to evaluate the contractor internal audit
         report and determine its effect on procedures performed in this engagement.
         Therefore, the auditor may not have performed the most appropriate procedures
         resulting in an inefficient use of resources and failure to identify potential fraud
         indicators. (Assignment Number 3191-2009F13010001)




audit office cognizant of the prime contractor is responsible for identifying the elements of cost requiring
assist audits and requesting the assist audits.


                                                     31
Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   9. Review the electronic standard working paper software and documents in
      the “Audit Planning & Performance System” to determine appropriate
      revisions to prompt auditor compliance with government auditing standards
      and Defense Contract Audit Agency policies and procedures such as:

       a. Require the listing of specific criteria in the source section of each
          working paper.

DCAA Comments
DCAA agreed. DCAA stated that it would revise its Audit Planning and Performance
System to require the identification of criteria specific to an evaluation in the applicable
working paper by December 31, 2012.

Our Response
DCAA comments were responsive. On September 19, 2012, DCAA provided an
example of the on-page note generated by the Audit Planning and Performance System
and the update to DCAA Contract Audit Manual Chapter 4-403g(4) requiring the auditor
to document in the scope of analysis the specific criteria used to make judgments and
conclusions. No additional comments are required.

       b. Revise all standard risk assessment working papers to require the auditor
          to list the factors used to determine the materiality and sensitivity of the
          assignment.

DCAA Comments
DCAA agreed in principle. DCAA stated that the current DCAA risk assessment
working papers (DCAA standard working paper B) for all assignments already require
the auditor to document significant materiality and sensitivity factors and assess the effect
of those factors on the assertion and cost elements under review. DCAA considers this
action complete.

Our Response
DCAA comments were partially responsive to the intent of the recommendation. On
September 19, 2012, October 4, 2012, and October 31, 2012, DCAA provided the
standard risk assessment working papers for all examination assignments as generated
from the Audit Planning and Performance System. DCAA also responded to follow-up
questions about their use and content. Most of the standard risk assessment working
papers include a section to document materiality and sensitivity factors and also provide a


                                             32
listing of factors to consider when completing this working paper section. However,
DCAA uses a generic risk assessment working paper for numerous examination-level
assignments that does not include a section to document and plan for materiality and
sensitivity factors. Some audit assignments that use the generic standard risk assessment
working paper include those for performing concurrent incurred cost audits, progress
payment audits, and some cost accounting standards audits. Including a listing of factors
to consider is not sufficient implementing guidance without a description or explanation
of the individual factors. For instance, the DCAA Contract Audit Manual Chapter 3-104
includes a detailed discussion of individual factors affecting audit scope that
encompasses many of the materiality and sensitivity factors that are listed on the standard
generic risk assessment working paper. Adding a reference to the applicable DCAA
Contract Audit Manual on the risk assessment working paper would provide supporting
information for auditors to use when completing this important step in audit planning.
We request that DCAA to provide additional comments in response to the final report,
giving further consideration to including a working paper section on documenting and
planning for materiality and sensitivity factors.


       c. Add a procedure to the concluding steps to remind the auditor that
          additional procedures need to be considered and performed when
          internal control deficiencies or potential fraud, illegal acts, abuse, or
          violations of contract provisions are identified.

DCAA Comments
DCAA agreed in principle. DCAA stated that it issued guidance on reporting business
system deficiencies in MRD 12-PAS-012 on April 24, 2012, and revised applicable
standard audit programs to include planning meetings with the audit team to discuss risk
of fraud and other noncompliances as a risk assessment procedure. DCAA also stated
that audit procedures to test the contractor’s compliance with applicable laws,
regulations, and contract terms exist throughout the audits and contractor compliance
with these criteria is the primary objective of most DCAA audits. DCAA considers the
actions to address this recommendation complete.

Our Response
DCAA comments were generally responsive. No additional comments are required. As
part of our followup and monitoring responsibilities, we will consider whether the
guidance, revised programs, and audit procedures are sufficient.

Auditor Communication During Planning
DCAA Policies Not in Compliance with GAGAS
In all of the 47 examination engagements reviewed, DCAA did not comply with GAGAS
requirements for auditor communication during planning. GAGAS 6.07 requires the
auditor to communicate certain information, including the auditor’s understanding of the
services to be performed for the engagement, in writing, to entity management, those


                                            33
charged with governance, and to the individuals contracting for or requesting the
engagement. The required information includes:

   •   nature, timing, and extent of planned testing and reporting;
   •   the level of assurance the auditor will provide; and
   •   any potential restriction on the auditors’ report, to reduce the risk that the needs or
       expectations of the parties involved may be misinterpreted.

Communication of specific information in relation to attestation engagements is
particularly important. Therefore, GAGAS and AICPA standards emphasize use of
written communication to reduce the risk that the needs or expectations of the parties
involved are misinterpreted. The majority of the deficiencies occurred because the
applicable DCAA guidance did not adequately cover the GAGAS requirements for
written communication with the contractor representative (entity management) or the
contracting officer (requester) of the attestation engagement.

Written Communication with Contractor Management Not
Compliant with GAGAS Requirements
DCAA did not comply with GAGAS 6.07 requirements to communicate, in writing,
certain specific information to contractor management. Communication of certain
information regarding the scope of the engagement and timeline for performance of and
reporting on the engagement is of particular importance to contractor management.
Putting the information in writing helps to avoid potential misunderstandings between the
auditor and the contractor regarding the engagement. Examples of noncompliances
related to written communication included:

   •   In 47 examination engagements, the auditor did not provide the contractor written
       notification of potential report restrictions.
   •   In 45 of the 47 examination engagements, the auditor did not inform, in writing,
       the contractor of the level of assurance to be provided in the report.
   •   In 39 of the 47 examination engagements, the auditor failed to provide the
       contractor information, in writing, on the nature, timing, or extent of planned
       testing or reporting.

DCAA guidance in effect during our review provided that the auditor should
communicate the GAGAS-required information to a representative of the organization
audited such as the audit liaison, corporate controller, or chief financial officer. This
DCAA policy, however, did not require the auditor to provide the information in writing.
Also, while standard audit programs prompted the auditor to hold an entrance conference
with the contractor’s representative, they did not mention the requirement to provide the
information to the contractor in writing. For an entrance conference, CAM 4-302.1.a.
only told the auditor to “document the date, participant’s names and title, and primary
discussion points, including specific identification of the requested data to control what
was requested and provided during the audit.” Therefore, the DCAA policy and
procedures did not adequately direct the auditor to perform all required activities needed
to comply with the GAGAS requirements for auditor communications.


                                             34
Communications with Requester Not Fully Compliant with
Requirements and DCAA Guidance
In 38 examination engagements reviewed, DCAA did not comply with GAGAS 6.07
requirements to communicate, in writing, certain specific information to the requester or
contracting official. For instance:

   •   In 22 of the 47 examination engagements, the auditor did not provide the
       requester or contracting official information, in writing, on the nature, timing, or
       extent of planned testing or reporting.
   •   In 32 of the 47 examination engagements, the auditor did not inform, in writing,
       the requester or contracting official of the level of assurance to be provided in the
       report.
   •   In 36 of the 47 examination engagements, the auditor did not provide the
       requester or contracting official written notification of potential report restrictions.

Auditors did not always comply with DCAA guidance for written notification to
contracting officials and related GAGAS requirements. We found noncompliances in all
20 self-initiated or non-requested engagements.

   •   In 13 of the 20 self-initiated or non-requested examination engagements, the
       auditor’s written notification to the contracting official did not include all content
       required by DCAA guidance.
   •   In 7 of the 20 self-initiated or non-requested examination engagements, the
       auditor did not issue any written notification to the contracting official.

Written communication with the requester or user is particularly important to ensure that
the requester or user fully understands the level of assurance to be provided and when it
will be received. This information allows the requester or user to manage the remainder
of the negotiation or contract administration process and ultimately meet the end user’s
needs.

DCAA guidance for communication with the requester or contracting official in effect
during our review required the auditor to send an acknowledgment letter in a timely
manner in response to requests for audit services received from a customer. The auditor
was also directed to send a notification letter to the planned recipient of the report for
engagements that have not been requested or are self-initiated such as incurred cost
audits, internal control system audits, and post-award audits. The content of the
acknowledgment or notification was to include the assignment number and type; scope,
objectives, and key procedures; opportunity for customer concerns or feedback on the
planned scope; whether technical assistance was required; information about in-process
communication; and the planned report date. The guidance also included examples of
acknowledgment and notification letters to illustrate the communication requirements.
The majority of the deficiencies we identified, however, related to not providing the
requester or the contracting official a clear explanation of the level of assurance to be
provided or the potential report restrictions. These criteria were not specifically part of
the acknowledgment or notification letter content in the DCAA guidance.


                                             35
Revised DCAA Guidance on Written Communications Needs
Further Improvements
From September 2010 through June 2012, DCAA made incremental improvements in its
guidance on written communications. In FY 2010, DCAA issued guidance reminders to
audit offices of the requirement to send an acknowledgement or notification letter to the
contracting official and contractor representative for each engagement and further
clarified its guidance in FY 2011. As of June 2012, all standard audit programs
contained a step for providing the GAGAS-required written notification to the contractor
and the contracting officials. Additional guidance revisions are still needed to improve
audit office compliance with GAGAS.

DCAA first reminded audit offices of the requirement to issue an acknowledgement or
notification letter in its September 9, 2010, The Rules of Engagement, guidance.
However, this guidance did not address the deficiencies we identified in the information
provided to the requester or user. Additionally, it did not require the audit offices to
provide the same information provided to the requester to the contractor, in writing, as
required by GAGAS. On December 15, 2010, DCAA instructed its auditors to
immediately issue a notification letter to the contractor for all new engagements and
those currently in the planning phase. The guidance also emphasized that the auditor
should ensure that an acknowledgement or notification letter was issued to the
contracting official for all engagements, including self-initiated or non-requested ones.
The examples provided to the audit offices of an acknowledgement or notification
memorandum to be sent to the contracting official and the notification letter to be sent to
the contractor generally included the GAGAS-required information.

On August 19, 2011, DCAA revised the CAM guidance and moved the
acknowledgement and notification letters examples from the CAM to the standard
electronic working paper packages and its intranet library. Additionally, as of June 2012,
DCAA revised all applicable standard audit programs to include steps for sending both
contractor notification letters and contracting official acknowledgement or notification
letters as part of the preliminary steps. However, to be consistent with GAGAS, the
acknowledgement or notification memorandum to the contracting official and the
notification letter to the contractor should clearly state that the level of assurance
provided by an examination engagement is “…to obtain reasonable assurance about
whether…are free of material misstatement.” DCAA guidance should also require the
auditor to identify the nature of the engagement as an examination engagement. The
previous examples incorrectly use the term “audit” instead of “examination.”


Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:




                                            36
   10. Revise the guidance and examples of Acknowledgement and Notification
       Letters to comply with generally accepted government auditing standard
       paragraph 6.07 on auditor communication during planning.

DCAA Comments
DCAA agreed. DCAA stated that it revised the acknowledgement and notification letters
in the Audit Planning and Performance System on September 10, 2012, to state that an
examination-level attestation engagement will be performed. DCAA considers actions
taken to address this recommendation as complete.

Our Response
DCAA comments were responsive. On September 21, 2012, DCAA provided the revised
letters that are now being delivered in the Audit Performance and Planning System. No
additional comments are required.

Evidence
Insufficient Evidence Obtained to Address Engagement
Objectives
In 36 of the 47 examination engagements, the auditor did not obtain sufficient,
appropriate evidence to address engagement objectives and support significant judgments
and conclusions. Auditors should determine the overall sufficiency and appropriateness
of evidence needed to provide a reasonable basis for the findings and conclusions.
Specifically, the auditor did not perform enough testing, complete planned procedures, or
use the correct criteria during testing. GAGAS 6.04b requires the auditor to obtain
sufficient evidence to provide a reasonable basis for the conclusion expressed in the
report. Furthermore, GAGAS 6.15 requires that when deficiencies are identified, the
auditor should plan and perform procedures to develop the elements of the findings
(criteria, condition, cause and effect) that are relevant and necessary to achieve the
engagement objectives. On May 2, 2012, DCAA issued MRD 12-PAS-015(R), “Audit
Guidance on Performing Sufficient Testing,” which covered risk assessment procedures,
tests of controls and substantive procedures, sufficient appropriate evidence, selecting
items for testing, and documentation requirements. The guidance also contained three
example scenarios of sufficient testing and procedures for testing estimates based on
unaudited historical data. We have not reviewed the effectiveness of this guidance on
DCAA compliance with GAGAS; however, we will monitor improvement in this area
through our continuous oversight of DCAA.

Sufficiency of Evidence
In determining sufficiency of evidence, auditors should evaluate whether enough
appropriate evidence exists to address the examination objectives and support the
findings and conclusions. Failure to obtain sufficient evidence resulted in unsupported
findings and conclusions. Examples of insufficient evidence included:




                                           37
     •   During a $151.7 million incurred cost examination engagement, the auditor relied
         solely on insufficient testing of $81.6 million in direct labor costs performed in a
         separate engagement to determine whether the labor costs were acceptable. The
         scope of the separate engagement was limited to performing a floor check of 31
         out of 800 employees. Failure to perform additional testing of the claimed
         $81.6 million in labor costs during the incurred cost audit and relying on the
         insufficient testing performed in the separate engagement caused the auditor to
         inappropriately accept all of the claimed incurred labor costs as allowable for final
         payment by the Government. (Assignment Number 9851-2005F10100014)
     •   During a forward pricing rate proposal examination engagement performed at a
         contractor with total sales of $132.9 million, the auditor tested only one of seven
         proposed rates, but expressed an opinion on all of the rates. Also, the auditor did
         not adequately review one indirect rate which had proposed base year expenses of
         approximately $1 million. The auditor failed to update the analysis of proposed
         indirect costs with actual costs that were available prior to the report issuance.
         Therefore, the work performed did not provide an acceptable basis for the
         Government to use when negotiating contracts with the contractor potentially
         resulting in a contracting officer unnecessarily spending Government funds.
         (Assignment Number 2651-2009H23000006)

Statistical and Nonstatistical Samples
Statistical Sampling Plans
In seven of eight examination engagements using statistical sampling, the auditor did not
use an appropriate confidence level 27 in the statistical sampling plan. Specifically, the
auditor used a confidence level of less than 90 percent that resulted in a sample size for
transaction testing that was too small. As a result, potential deficiencies and questioned
costs were not identified or reported, and the Government could have reimbursed the
contractor for unallowable costs. Examples of insufficient testing that resulted from
inadequate statistical sampling plans included the following:

     •   During a $102.3 million incurred cost examination engagement, the auditor used a
         70 percent confidence level and 50 percent error rate 28 in the statistical sample of
         indirect expenses. In one sample, the auditor only selected 4 out of 51 items
         representing 25 percent of the costs charged for human resource benefits.
         (Assignment Number 6151-2007N10100001)



27
   The confidence level is the assurance or probability that the amount being estimated by the sample will
fall within a specified range (or interval) determined by the sample results. A confidence level is
commonly defined as the point estimate plus or minus the precision amount. For instance, a 90 percent
confidence level indicates that with repeated sampling under the same sampling plan, 90 times out of 100,
the actual universe amount is expected to be within the interval computed from the sample results. In
practical terms, this means that any single sample has a 90 percent chance of producing a result, in this case
cost questioned, that is the actual amount in the universe.
28
   The error rate refers to the expected amount of dollar errors found in the universe.


                                                     38
     •   During a $96 million firm-fixed price proposal examination engagement, the
         auditor used a 70 percent confidence level and 25 percent error rate in the
         statistical sampling plan to review the proposed $25.8 million bill of material,
         which resulted in an insufficient sample and limited testing to 28 of the 507 items.
         (Assignment Number 3561-2009D21000013)

DOD IG Audit Policy and Oversight issued APO Memo No. 2010-CAPO-005,
“Adequacy of Defense Contract Audit Agency Statistical Sample Plans,” on
May 28, 2010, that recommended the appropriate use of statistical sampling applications
to ensure that sufficient evidence is obtained. Specifically, APO recommended the use of
a minimum of 90 percent confidence level in statistical sampling applications for
variables; revision of DCAA CAM guidance and formal training courses and materials;
and training for all audit staff. In response to our recommendations, DCAA revised their
guidance by issuing MRD 10-OTS-051(NR), “Guidance on Variable Sampling Policy,” 29
dated August 31, 2010, and MRD 10-OTS-069(R), “Attribute Sampling Policy,” dated
October 20, 2010, which incorporated the use of a 90 percent confidence level in
determining sample sizes. These guidance documents also addressed reporting sample
results in reports. We have not reviewed the implementation of this guidance; however,
we will monitor improvement in this area through our continuous oversight of DCAA.

Nonstatistical Sampling Plans
In 9 of the 23 examination engagements 30 reviewed that used nonstatistical sampling, 31
the auditor did not have a nonstatistical sampling plan for the selection of items for
testing. Due to the auditor not using the criteria outlined in MRD 09-PAS-003, “Audit
Guidance on Working Paper Documentation of Judgmental Selections,” dated
January 30, 2009, the auditor did not develop an adequate sampling plan and select a
sufficient number of transactions for testing. Therefore, the Government may have
reimbursed the contractors for unallowable costs or negotiated a higher contract value
than it should have. Examples of insufficient testing that resulted from inadequate
nonstatistical sampling plans included:

     •   During a $16.4 million incurred cost examination engagement, the auditor did not
         use an appropriate nonstatistical sampling plan for testing incurred labor costs.
         This deficiency resulted in the auditor evaluating roughly 1 percent of the total
         direct labor costs ($64,349 of $5.4 million). The auditor did not identify the total
         universe for direct labor costs as $5.4 million, or the total number of contractor
         employees. Instead, the auditor used a direct labor cost universe of $2.1 million


29
   DCAA later reissued this guidance as MRD 11-OTS-001(R) on January 3, 2011, to allow the document
to be released to the general public. The guidance itself did not change.
30
   In some of the 47 examination engagements reviewed, the auditor did not use sampling methods because
the nature of the assignment did not require transaction testing (e.g. forward pricing rate proposal and CAS
compliance reviews), the auditor failed to perform transaction testing, or the auditor relied solely on testing
performed in other assignments.
31
   This refers to reviewing less than 100 percent of the transactions but not statistically projecting the result
to the transaction universe.


                                                       39
         that represented direct labor claimed on only 4 high dollar contracts. To make
         matters worse, the auditor then only tested 3 percent ($64,349 out of $2.1 million)
         of the misidentified direct labor cost universe by testing only 8 employees’
         charges for just 2 pay periods. (Assignment Number 6161-2005A10100022)
     •   During a $41.2 million cost realism proposal examination engagement, the auditor
         did not identify the universe of transactions in the 4 accounts selected or the basis
         for the account selection. The auditor also gathered insufficient evidence to
         achieve the engagement’s objectives because the auditor did not address
         differences identified between the contractor’s submission and the general ledger.
         When the submission and general ledger accounts do not reconcile, the
         Government is not assured that the contractor was only reimbursed actual
         allowable costs. (Assignment Number 3521-2010V27000003)

Failure to Perform Sufficient Work to Achieve Objectives
In some reviewed examination engagements, the auditor failed to perform sufficient work
to achieve all of the engagement objectives because some of the procedures were not
performed or not performed properly. GAGAS 6.15 states that a finding or a set of
findings is complete to the extent that the engagement objectives are satisfied. For
instance, during the testing of claimed consultant fees in a $681,000 incurred cost
examination engagement, the auditor did not identify that a consulting agreement was
only valid for 90 days. The contractor claimed $14,243 for services performed on the
contract for the entire year. One engagement objective was to determine the allowability
of the claimed costs. Because the auditor did not test the claimed costs against key
criteria such as time limitations, the auditor did not fully satisfy the objective. The
Government overpaid the contractor $12,229 in consultant fees. (Assignment Number
4171-2006G10100007)

Insufficient Evidence to Support Internal Control System
Reviews
DCAA did not obtain and analyze sufficient evidence to support the findings and
conclusions in five of the six 32 internal control system examination engagements we
reviewed. The auditors did not perform sufficient compliance testing on all relevant
control objectives and did not perform all procedures needed to address the engagement
objectives. The GAO also reported similar testing deficiencies in its September 2009
Report No. GAO-09-468, “Widespread Problems with Audit Quality Require Significant
Reform.” DCAA uses the results from various internal control system reviews when
planning related engagements involving the same contractor. Therefore, inadequately
performed internal control system reviews negatively impact DCAA’s compliance with
GAGAS 6.10 and 6.11 requirements to obtain a sufficient understanding of internal
control and resulted in insufficient testing in assignments that relied on the results of
these reviews. Examples of inadequate internal control system reviews included:


32
  DCAA did not perform one of the seven internal control system examination engagements, Assignment
Number 1261-2010A12030001, as an internal control system review. Therefore, we did not include the
deficiencies identified in this engagement in this report section.


                                                 40
     •   In an examination engagement of a labor accounting system that processed
         $81 million, the auditor performed limited or insufficient testing of internal
         controls for seven out of eight control objectives. Control objectives not tested
         included Employee Awareness Training, Labor Authorization Approvals, Manual
         or Automated System, Labor Distribution, Labor Cost Accounting, Payroll
         Preparation and Payment, and Labor Transfers and Adjustments. Therefore,
         DCAA needs to increase its testing of direct and indirect labor costs during other
         engagements to ensure that the Government reimbursed the contractor only for
         allowable costs. (Assignment Number 3191-2009F13010001)
     •   In an examination engagement of a billing system that processed $4.3 billion, the
         auditor did not test internal controls for a key control objective, Implementation
         of Policies and Procedures. DCAA determined that the contractor’s billing
         system was inadequate; therefore, the contractor cannot bill the Government
         without DCAA provisionally approving cost vouchers. However, failure to
         identify all potentially significant system deficiencies further delays the contractor
         implementing an adequate billing system. (Assignment Number 2641-
         2009C11010001)
     •   In an examination engagement of an indirect and other direct cost system that
         processed $708 million, the auditor inappropriately relied on testing performed in
         other engagements for key control objectives. The auditor did not verify that the
         referenced engagements contained sufficient testing for the Preparation of Indirect
         and Other Direct Cost Submissions, Identification of Unallowables, and
         Allocability of Indirect and Other Direct Costs control objectives. Our review of
         the other engagements disclosed that sufficient appropriate testing for those
         control objectives was not performed in the referenced engagements and is not
         generally performed in those types of engagements. The audit office will need to
         significantly increase its testing of indirect and other direct costs on all
         engagements performed at this contractor. (Assignment Number 1721-
         2009B14980001)
     •   During the control environment system examination engagement 33 of a contractor
         with $674.4 million in FY 2009 Government sales, the auditor identified that the
         contractor was not including the mandatory disclosure clause in its subcontracts
         and may not be performing periodic compliance reviews of its code of business
         ethics and conduct. Failure to perform either action, as required by Federal
         Acquisition Regulation Subpart 52.203-13, reflects on the contractor’s attitude
         toward its required responsibilities to identify and disclose violations of laws and
         to establish an overall ethical business environment. Therefore, the potential non-
         compliances identified in the engagement should be considered a fraud indicator
         and should significantly increase the fraud risk when performing other
         examination engagements. The auditor did not perform additional work to fully
         develop and report the findings. Instead, audit office management decided to


33
   DCAA combines the reviews of the accounting system and the overall control environment system in one
standard audit program. The audit office decided to perform only the overall control environment system
review in the assignment we reviewed.


                                                  41
         issue the report in February 2010 with an overall inadequate opinion based on
         other identified deficiencies and address the additional issues in a supplemental
         report. However, the audit office did not perform the additional work and, in
         response to our inquiry, stated that they would start a follow-up assignment by
         December 31, 2011. During the time period since the report was issued, the audit
         office canceled three accounting system reviews, any one of which could have
         covered the additional work needed on the control environment. DCAA should
         complete the work required to develop and report all significant control
         environment system deficiencies in a timely fashion. Deficiencies identified in a
         contractor’s control environment impact the amount and type of testing performed
         on all engagements involving the contractor. (Assignment Number 3311-
         2008C11070001)

Revised DCAA Approach for Internal Control System Reviews
In FY 2010, based on a previously proposed revision to the Defense Federal Acquisition
Regulation Supplement 34 and the legislative requirements regarding contractor business
systems, DCAA began to restructure the internal control reviews it performed, drafted
new audit programs, and started testing new audit programs for evaluating internal
controls at 11 pilot sites. DCAA combined the planning and budgeting system review
with the estimating system review; the compensation system and indirect and other direct
cost system in the incurred costs audits; and the control environment, accounting system,
billing system, labor accounting system, and information technology system in the
accounting system review.

In March and April 2012, DCAA issued guidance revising its approach for reviewing
major contractors’ internal control systems. Significant changes included reducing from
10 to 6 the number of internal control systems subject to evaluation; opining on the
contractor’s compliance with the Defense Federal Acquisition Regulation Supplement
regulation criteria for each system, 35 and issuing a deficiency report when sufficient
evidence is obtained to support that a significant deficiency or material weakness exists.
A February 24, 2012 Defense Federal Acquisition Regulation Supplement rule 36
implemented the following statutory requirements: 37

     •   established a “Contractor Business System” clause defining contractor business
         systems as the contractor’s accounting system, estimating system, purchasing



34
   Defense Federal Acquisition Regulation Supplement Case No. 2009-D038, “Business Systems-
Definition and Administration,” originally published in the Federal Register on January 15, 2010, with the
revised rule published on December 3, 2010.
35
   Previously, DCAA opined on the effectiveness of the contractor’s internal controls or the adequacy of the
contractor’s business systems.
36
   The Defense Acquisition Regulation Council previously issued an interim rule implementing the
statutory requirements on May 11, 2011.
37
   Section 893 of the 2011 National Defense Authorization Act established requirements for the
improvement of contractor business systems to ensure that such systems provide timely, reliable
information for the management of DOD programs.


                                                    42
       system, earned value management system, material management and accounting
       system, and property management system;
   •   defined an acceptable business system based on detailed criteria for each system;
       and
   •   defined significant deficiency.

Proper implementation of the revised approach to performing internal control reviews
could increase GAGAS compliance on these engagements and compliance with GAGAS
6.10 and 6.11 on other engagements. We have not reviewed the implementation of this
revised approach; however, we will monitor improvement in this area through our
continuous oversight of DCAA.

Documentation
Documentation Needs Improvement
In 32 of the 47 examination engagements, the auditor did not comply with GAGAS and
DCAA requirements for documentation. Specifically, the auditor did not adequately
document the work performed to support significant judgments and conclusions,
including descriptions of transactions and records examined. GAGAS 3.38 requires that
auditors document significant decisions affecting the audit objectives, scope, and
methodology; findings; conclusions; and recommendations resulting from professional
judgment. Furthermore, GAGAS 6.20 requires auditors to prepare attest documentation
in connection with each engagement in sufficient detail to provide a clear understanding
of the work performed, including the nature, timing, extent, and results of engagement
procedures performed; the evidence obtained and its source; and the conclusions reached.
Inadequate documentation hinders adequate supervisory review, other management
reviews, and implementation of key quality control procedures. Additional time is also
required by the audit staff and management to correct identified deficiencies thus
delaying report issuance and work on other assignments. It also negatively impacts other
future engagements when auditors inappropriately rely on the work performed. Finally,
when engagement documentation is disordered, hard to follow, or contains errors or
omissions, the work performed will not stand on its own when challenged. In the
extreme, contracting officers or other users do not use the information provided and stop
requesting audit services. This results in the Government’s interests not being fully
protected.

Insufficient Documentation
In 24 of the 47 examination engagements reviewed, the auditor did not provide sufficient
detail in the working papers. GAGAS 6.21 requires auditors to prepare documentation in
sufficient detail to enable an experienced auditor, having no previous connection with the
engagement, to understand from the documentation the nature, extent, and results of
procedures performed; the evidence obtained and its source; and the auditors’ significant
judgments and conclusions. Examples of documentation not providing sufficient detail
included:




                                           43
   •   In a $12.9 million cost-type price proposal examination engagement, the auditor
       did not sufficiently document and reference the work performed, including
       evidential matter obtained, to support the cost questioned. We replicated the
       auditor’s work to verify the questioned cost calculation. In addition, many
       working papers did not contain the DCAA-required on-page notes needed to
       explain the work performed. The auditor used an Eastern Region electronic
       working paper program, Proposal Evaluation and Reporting System, to construct
       spreadsheet documents to support the work performed. The spreadsheet produced
       by the program did not contain referenced notes and did not clearly show the
       recommended rates because the rates were not referenced back to source
       documents. (Assignment Number 1461-2010D21000003)
   •   During an examination of a $164,295 partial termination of a $1.3 million firm-
       fixed-price contract, the auditor did not document work performed in the detailed
       working papers and the working papers were very difficult to follow. Some
       working papers did not clearly explain the items tested, and others did not
       describe the supporting documentation used to accept the proposed costs. The
       auditor also referenced work to e-mail messages with folder attachments
       containing the supporting documentation; however, the referenced data were not
       readily identifiable in the e-mail attachments. (Assignment Number 1241-
       2009A17100003)
   •   In a $222.5 million firm-fixed-price proposal examination engagement, some
       detailed working papers did not have the purpose, source, scope, and conclusion
       sections required to provide an explanation of the work performed. (Assignment
       Number 2801-2009G21000041)
   •   In a $98.8 million firm-fixed-price proposal examination engagement, the auditor
       did not properly document questioned labor costs. Documentation of the work
       performed did not provide a clear understanding of the calculation of $337,747 in
       questioned labor costs. The reviewer needed to discuss the assignment with the
       auditor to determine that the calculation was acceptable. (Assignment Number
       9861-2009P21000019)

Inadequate Documentation of Objectives, Scope, and
Methodology
In nine examination engagements, the auditor did not adequately document the
objectives, scope, or methodology. GAGAS 6.22a requires auditors to do so, including
descriptions of transactions and records examined. Inadequate documentation of
sampling plans is a repeat deficiency identified in our prior review of the FY 2006
DCAA quality control system. Examples included:

   •   In a $3.7 million multi-year incurred cost examination engagement, the auditor
       did not properly document the nonstatistical sampling plans used to perform
       transaction testing. The auditor did not describe the universe from which the
       items were selected or document how the nonstatistical selections result in
       adequate coverage of the universe to meet the engagement objectives. DCAA
       guidance requires this documentation in the working papers. (Assignment
       Number 3201-2007G101000230)


                                          44
   •   In a $1.6 million incurred cost examination engagement, the auditor did not
       properly document the nonstatistical sampling plans used to perform transaction
       testing. The auditor did not quantify the proportion of the universe selected and
       tested to show adequacy of coverage to meet the objectives as required by DCAA
       guidance. (Assignment Number 2161-2006P10100005)

Inadequate Documentation of Work Performed
In 28 of the 47 examination engagements reviewed, the engagement documentation did
not adequately support the conclusions. GAGAS 6.22b requires auditors to document the
work performed to support significant judgments and conclusions. Examples of
inadequate documentation included:

   •   In a $102.3 million incurred cost examination engagement, the final report did not
       tie to the draft report or summary working paper. The auditor explained that the
       final report was updated to correct executive compensation questioned costs.
       However, the auditor failed to update the working papers to provide the required
       supporting documentation for the questioned cost in the final report. (Assignment
       Number 6151-2007N10100001).
   •   In a $151.7 million incurred cost examination engagement, the auditor did not
       document a $29,400 downward adjustment of the questioned executive
       compensation costs. The auditor documented in the working papers $223,849 of
       questioned executive compensation costs based on an analysis performed by the
       Mid-Atlantic Regional Compensation Team, but the final report questioned
       $194,449. The auditor stated the difference was due to the contractor providing
       further analysis of claimed executive compensation; however, the auditor failed to
       document the analysis in the working papers. (Assignment Number 9851-
       2005F10100014)

Adequate supervision and management review of the reported findings is not assured
when updated findings are not properly documented in the working papers.

Fraud, Illegal Acts, Violations of Provisions of Contracts,
or Abuse
Inadequate Planning to Address Potential Fraud Indicators
In 31 of the 47 reviewed examination engagements, DCAA did not comply with GAGAS
requirements to identify and address potential fraud indicators during the planning
process. Therefore, the audit offices did not identify all potential areas of fraud or abuse
in the 31 engagements. GAGAS 6.13a requires the auditor to design the engagement to
provide reasonable assurance of detecting fraud, illegal acts, or noncompliance with the
provisions of contracts that could have a material effect on the assertion or subject matter
and document the related risk factors. When risk factors are identified, the auditor should
document the risk factor identified, the auditor’s response to the risk factor, and the
auditor’s conclusions. For instance:




                                            45
•   In a defective pricing examination engagement of a $22.7 million contract, the
    auditor documented that no fraud indicators were identified. However, the
    auditor did not address fraud risk factors related to compliance with the Truth in
    Negotiations Act and the specific contract being reviewed. In the risk assessment,
    the auditor used a contractor-provided estimate at completion worksheet to
    identify the risk factor that profit at completion would be significantly higher than
    negotiated. The auditor also noted that DCAA issued multiple positive defective
    pricing reports on the contractor. Both are fraud indicators for defective pricing.
    However, the auditor failed to design steps to address the profit issue. At a
    minimum, the auditor should have discussed the reason for the increased profit
    with the contractor and then used that information to design appropriate probe
    tests. In addition, because the auditor did not specify the nature of the previous
    defective pricing findings, they could not determine the significance of the prior
    findings to the current engagement or what steps should be performed to cover
    any relevant risk factors. (Assignment Number 6341-2008D42000026)
•   In the risk assessment for a 2007 incurred cost examination engagement of a
    contactor with approximately $300 million in Government sales, the auditor noted
    that a fraud referral was issued for potential labor mischarging during the prior
    year’s engagement and the contractor was under investigation. However, contrary
    to those facts, the auditor documented for the fraud risk assessment step that no
    fraud risk indicators were disclosed during the preliminary audit steps. The
    auditor failed to document the nature of the mischarging, any relevant steps
    needed for the current engagement, or whether the already planned procedures
    adequately addressed the labor mischarging previously referred for investigation.
    (Assignment Number 6151-2007N10100001)
•   During the examination engagement of a $1.2 million contract, the auditor did not
    design procedures to specifically follow-up on significant prior findings,
    including costs transferred from task orders with no available funding to task
    orders with funding. The contractor did not have acceptable supporting
    documentation, a proper explanation or justification, or corrected time sheets for
    the transferred costs. The supervisor was also aware that the audit office had
    issued a fraud referral on labor transfers based on a prior year’s incurred cost
    examination engagement. Additional procedures to consider included verification
    of any cost adjustment back to source documents for task orders with costs over
    the contract ceiling. (Assignment Number 1661-2009H17900002)
•   During the performance of a labor system examination engagement at a major
    segment of a top 10 Defense contractor, the auditor requested and received a
    contractor internal audit report, but did not follow-up on the issues and
    recommendations identified for untimely submittal of timecards and lack of valid
    work authorizations. The contractor internal audit department categorized these
    deficiencies as important and requiring high priority attention by management.
    However, DCAA did not consider the significance of the contractor internal audit
    results and recommendations, expand completed compliance testing, or perform
    additional procedures to adequately cover the issues. (Assignment Number 3191-
    2009F13010001)



                                         46
Potential Fraud Risks Not Reported as Required
In two examination engagements, the audit office was aware of potential fraud, illegal
acts, or abuse but did not report it to outside parties. The appropriate authorities did not
have the opportunity to determine whether to pursue the potential fraud criminally,
civilly, or administratively. GAGAS 6.40 provides that the auditor should comply with
legal requirements to report known or likely fraud, illegal acts, violations of contract
provisions, or abuse to outside entities. DCAA is required to report such instances to the
appropriate Government investigative organization. The two engagements identified
were:

   •   During an incurred cost examination engagement that identified $3.8 million in
       questioned indirect expenses, the auditor failed to submit a fraud referral for the
       contractor repeatedly claiming expressly unallowable costs despite documented
       guidance from the detachment audit manager that a fraud referral should seriously
       be considered. (Assignment Number 9851-2005F10100014)
   •   In a pre-award accounting system examination engagement of a small contractor,
       the auditor obtained sufficient evidence indicating the contractor was charging
       and billing excessive hours for employees, and was improperly billing
       consultants as employees. However, the auditor did not identify these issues as
       fraud indicators and refer the potential fraud. (Assignment Number 6431-
       2009B17740013)

Current DCAA Guidance Should Be Revised to Increase
Coverage of Fraud Indicators
Current DCAA guidance is not sufficient to ensure that examination engagements
comply with requirements related to detection, identification, and reporting of potential
fraud, illegal acts, or abuse. Insufficient planning, risk assessment, and design of tests
related to fraud, illegal acts, violations of contract provisions, and abuse is a repeat
deficiency identified in our May 2007 report on the FY 2006 DCAA quality control
system. DCAA nonconcurred with our previous recommendation that it enforce its
guidance requiring audit offices to discuss potential fraud risks during the annual
planning discussion with contractor representatives. Instead, DCAA determined that the
AICPA requirement that it based its guidance on only applied to financial statement
audits and, therefore, DCAA eliminated the requirement.

From August 2011 through June 2012, DCAA incorporated a revised fraud risk
assessment procedure in its standard audit programs for examination engagements. The
brainstorming procedure requires the audit team (managers, supervisors, and auditors) to
discuss the risk of fraud for that engagement and to discuss the risk of fraud throughout
the engagement. It also involves designing procedures to address the identified fraud
risks to provide reasonable assurance of detecting fraud and other noncompliances with
applicable laws and regulations that could have a material effect on the contractor’s
assertion. However, at the time DCAA revised its standard programs, DCAA did not




                                             47
issue the standard DCAA guidance document 38 explaining the new process nor has
DCAA included guidance on this process in its CAM. The guidance in CAM should
explain the reason for performing the step and tie it to the applicable GAGAS and
AICPA requirements. Additionally, since DCAA updated its computerized training
course on Fraud Awareness in August 2011, it should reassess the course’s coverage to
determine whether revisions are needed to cover the team brainstorming process.

DCAA also does not require its audit staff to perform a step that many organizations find
useful. As mentioned above, on July 16, 2007, DCAA eliminated the requirement for its
auditors to make inquiries of contractor management of management’s knowledge of
fraud risks during its annual planning meeting with major contractors. Under commonly
followed guidance, issued in 1992 and updated in 1994, by the Committee on Sponsoring
Organizations 39, a key component of a company’s internal control framework is a risk
assessment process to identify and analyze the internal and external risks to achieving its
business objectives, including compliance with applicable laws and regulations. Also
many Government contracts 40 issued after December 12, 2008 contain Federal
Acquisition Regulation 52.203-13(c)(2)(ii)(C) clause requiring the contractor to
periodically evaluate and assess the risk of criminal conduct and modify its internal
controls and compliance programs as necessary to address that risk. Thus a responsible
contractor should already be assessing the risks of fraud, illegal acts, and noncompliances
with applicable laws impacting Government contracts and be prepared to discuss the
identified risks with DCAA. Such discussions would be beneficial both on an annual
basis and on specific engagements during the entrance conference. These discussions
with management regarding fraud risk are already a requirement for financial statement
auditors under AICPA AU 316 which is incorporated by reference into the GAGAS 2011
version 41 for financial audits. For attestation engagements, the GAGAS 2011 version
does not directly incorporate the AICPA requirements. The management inquiry
procedure represents a best practice that DCAA should incorporate in its standard fraud
risk assessment process and instruct its audit staff to begin holding such discussions with
contractor representatives immediately.

Revised Finding and Recommendation
As a result of management comments, we revised the draft finding on the GAGAS 2011
version requirement to discuss fraud risks with contactor management to clarify the


38
   DCAA normally issues an MRD to its audit offices explaining changes to its guidance and processes or
procedures, or providing relevant information related to its audit work.
39
   The Committee on Sponsoring Organizations [COSO] was formed in 1985 to issue guidance on how
companies could implement the Treadway Commission’s recommendations designed to reduce the
probability of fraud in financial reporting. The issued guidance defined internal control and five
interrelated components of internal control which included control environment; risk assessment; control
activities; information and communication; and monitoring.
40
   The contracting officer is to use this clause in Government contracts and subcontracts that are for more
than $5 million and have period of performance lasting 120 days or longer. Contracts for the acquisition of
commercial items or that will be performed outside of the U.S. are exempt.
41
   The 2011 version of GAGAS is effective for financial audits and attestation engagements for periods
ending on or after December 15, 2011.


                                                    48
requirement when performing attestation engagements. We also revised
Recommendation 11.a to clarify the nature of the additional resources needed to assist
auditors with their assessment of fraud indicators and determination of audit steps to
address the indicators.

Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   11. Increase the effectiveness of and compliance with fraud-related standards
       by:

       a. Developing a toolkit or guidance for auditors to use when assessing fraud
          risk indicators to determine which procedures or steps to include to
          address each fraud indicator identified during planning. It should also
          provide information on determining which steps to expand, include
          alternative steps to perform when more appropriate than expanding
          existing steps, and address any fraud indicator found during the
          execution phase of the engagement.

DCAA Comments
DCAA agreed in principle. DCAA stated that in June 2012, DCAA revised all applicable
audit programs to include audit team discussions on fraud risk and other noncompliances
that could have a material effect on the audit and the design of appropriate audit
procedures. Stating that the current DCAA teaming approach that encourages critical
thinking is a better approach, DCAA did not agree with providing auditors a “toolkit” of
audit steps for each fraud indicator because it could lead to a “checklist mentality.”
However, DCAA will assess the need for the enhancement of audit procedures related to
fraud risk during an ongoing policy project on fraud by June 30, 2013.

Our Response
DCAA comments did not fully address the intent of the recommendation. We agree that
the recently implemented audit team discussions on fraud risk are a positive step to a
more comprehensive fraud risk assessment process. This approach will not be fully
effective without the proper resources to support the process. Thus, the intent of the
recommended toolkit is to support and promote critical thinking by providing information
to the auditor on the relationship between potential fraud indicators and audit procedures.
The audit team would use this information during team discussions to ensure that
indicators are properly addressed in both the planning and execution phases. DCAA
should consider issuing guidance that provides examples on additional audit steps to be
performed to address specific fraud indicators. We request that DCAA to provide
additional comments on this recommendation in response to the final report.



                                            49
       b. Revising guidance to include a revised fraud risk assessment procedure in
          which the audit team (managers, supervisors, and auditors) discusses the
          risk of fraud for that engagement and design procedures to address the
          identified fraud risks as required by government auditing standards.

DCAA Comments
DCAA agreed in principle. DCAA stated that it revised all applicable audit programs in
June 2012 to require audit team discussions on fraud risk and to design audit procedures
to address the identified risks. DCAA concluded that based on the team discussions and
the other risk assessment procedures, the audit team designs audit procedures to address
identified fraud indicators. DCAA considers the actions taken to address this
recommendation complete.

Our Response
The DCAA comments were partially responsive to the intent of the recommendation.
DCAA has revised all applicable audit programs to include audit team discussions on
fraud risk. No guidance exists to explain the team discussion process or illustrate it. The
audit team discussion approach differs decidedly from the prior fraud risk assessment
step. Therefore, the audit team needs appropriate guidance to ensure its effective
implementation. DCAA normally issues guidance documents when making process
improvement changes. We request that DCAA reconsider issuing relevant guidance to
support its revised fraud risk assessment process and provide comments on the final
report.

       c. Revising guidance and all applicable standard audit programs to require
          the audit staff to ask pertinent questions of appropriate level contractor
          personnel regarding the contractor’s assessment of fraud risks relating to
          the assertion or subject matter of the engagement.

DCAA Comments
DCAA agreed in principle. DCAA stated that the American Institute of Certified Public
Accountants AT 601.33, which is incorporated into GAGAS for attestation engagements,
does not include the requirement to inquire of company management about its assessment
of fraud risk. However, DCAA will consider including this requirement and others on
fraud as referenced in the AICPA auditing standards but not required by the AICPA
attestation standards in its policy project on fraud and assess whether enhancements to
fraud risk guidance are needed by June 30, 2013.

Our Response
The management comments were partially responsive to the intent of the
recommendation. Asking contractor management about its assessments of the risk of
fraud in its business operations impacting government contracts represents a best
practice. We agree that inquiring of management about its fraud risk assessments is not a
GAGAS requirement for attestation engagements. Performing management inquiries,


                                            50
however, will enhance the effectiveness of designing the audit to detect instances of fraud
material to the engagement, which is a GAGAS requirement. Certified Public
Accountants are required by auditing standards to make management inquiries about
fraud risk in performing audits to protect stockholder interests. DCAA should
incorporate the same requirement when performing contract audits of Defense contractors
to protect taxpayer interests. We revised this report section to clarify the GAGAS
reference to AICPA auditing and attestation standards’ requirements. We request that
DCAA strongly consider adding this requirement to its fraud risk assessment process as
they complete the fraud policy project. DCAA should provide comments on the final
report.

       d. Assessing the August 2011 version of the Fraud Awareness training
          course to determine whether it covers all DCAA required processes
          associated with identification, detection, and reporting of potential fraud
          and revise the course, as needed, to provide such coverage.

DCAA Comments
DCAA agreed stating that DCAA would assess its Fraud Awareness training course and
revise it, as needed, for any changes in guidance by December 31, 2013.

Our Response
DCAA comments were responsive. The Fraud Awareness training course is DCAA’s
primary training vehicle on fraud and auditor responsibilities regarding fraud when
performing audits. If possible, DCAA should complete this action by
June 30, 2013. No additional comments are required.

Supervision
Ineffective Supervision
For 38 of the 47 examination engagements reviewed, supervision was ineffective to
ensure that work performed met standards. GAGAS 6.04a states that the supervisor must
properly supervise any assistants [auditors]. Supervision involves reviewing the work
performed to ensure that it was adequately performed and supports the report
conclusions. Supervisors should also review the work performed to verify that it
complies with GAGAS. For most engagements reviewed, the supervisor documented
initial, interim, and final reviews as required by DCAA procedures. However the pattern
of multiple noncompliances with planning, communication, evidence, documentation,
and fraud-related standards clearly indicates that supervision was inadequate. Inadequate
or ineffective initial, interim, and final supervision directly led to the significant number,
74 percent, of assignments reviewed that demonstrated a lack of professional judgment.

We also identified 10 of 47 reviewed examination engagements with deficiencies in
supervisory documentation. The DCAA electronic audit assignment software generates
standard documents for the supervisor to document approval of planned steps, initial



                                             51
guidance, interim review, and final reviews. Examples of documentation deficiencies
included:

   •   In six examination engagements, final supervisory review comments were either
       not made or the comments were generally administrative in nature and did not
       provide guidance to correct GAGAS-related deficiencies. (Assignment Numbers
       6431-2009B17740013; 2641-2009C1101001; 3191-2009F13010001; 3521-
       2009C21000011; 6381-2009G11590001; and 1461-2010D21000003)
   •   In two examination engagements, the supervisory auditor either did not provide
       adequate initial guidance prior to the auditor completing the risk assessment or
       did not provide interim review comments. (Assignment Numbers 4901-
       2008W17900010 and 4261-2009T27000040)
   •   In one examination engagement, the supervisor did not approve the initial audit
       plan. (Assignment Number 6151-2007N10100001)
   •   In one examination engagement, the supervisor did not approve the sample plan
       prior to its implementation. (Assignment Number 9731-2007B10100017)

Six of the above examples of deficiencies in supervisory documentation were identified
on engagements where DCAA did not demonstrate professional judgment. The
supervisory documentation deficiencies we identified combined with supervisors’ failures
to identify significant deficiencies in the work they were responsible for reviewing
indicate that DCAA supervisors could be filling in the required standard forms in a
perfunctory manner. DCAA should consider whether changes to the standard
supervisory administrative documents would help improve the effectiveness of
supervisory reviews, especially for newly promoted supervisors.

Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   12. Improve the effectiveness of supervisory auditors and compliance with
       government auditing standards by:

       a. Revising existing standard electronic working papers that supervisory
          auditors use to document supervisory guidance and review to address
          specific government auditing standards and Defense Contract Audit
          Agency guidance requirements;

       b. Providing additional tools such as a link to suggested potential corrective
          actions to remedy any identified deficiencies, and reminder checklists
          directly linked to the electronic working paper packages for supervisory
          auditors to use as aids when reviewing assignments.



                                          52
          c. Moving the audit guidance on performing and documenting supervisory
             reviews from the Defense Contract Audit Agency Contract Audit Manual
             to a location or source directly linked to the electronic working paper
             packages so that the information is more readily available to users.

   DCAA Comments
   DCAA agreed in principle with the recommendations. DCAA stated that it has taken
   steps to improve the effectiveness of supervisory auditors in complying with GAGAS
   through training and other initiatives that help supervisors understand their
   responsibilities under the standards and DCAA policy. DCAA also stated that it required
   all supervisory auditors to attend a training course that addressed supervisory
   responsibilities in FY 2011. Additionally, the DCAA Integrity and Quality Assurance
   Directorate provided the Supervisory Auditor Assignment Review Process Workshop to
   give all supervisors training on reviewing working papers. DCAA also initiated a
   coaching program to assist supervisors in performing their duties. DCAA disagreed with
   providing supervisory auditors with suggestions and reminders because it could lead to a
   “checklist mentality” and inhibit the critical thinking skills needed to determine the
   appropriate corrective actions for specific circumstances. DCAA considers the actions
   related to the intent of these recommendations complete.

   Our Response
   DCAA comments were generally responsive. No additional comments are required. As
   part of our followup and monitoring responsibilities, we will consider whether the
   training and other initiatives are sufficient to maintain and continue to improve
   supervisory skills.

   Reporting
   DCAA Reports Did Not Comply with GAGAS Requirements
   In 34 of the 47 examination engagements, the report did not comply with GAGAS
   reporting standards. Generally, the reports did not comply with GAGAS because the
   evidence obtained was not sufficient to support the report conclusions. GAGAS 6.04b
   states that auditors must obtain sufficient evidence to provide a reasonable basis for the
   conclusion that is expressed in the report. Some reports also should not have been issued
   because the report did not include appropriate qualifications, and the report conclusions
   were not consistent with the draft report and supporting working papers. A summary of
   significant deficiencies identified are detailed in Table 6 below.

                Table 6. Summary of Identified Reporting Noncompliances
                              with GAGAS and DCAA Policies
   Cite                     Requirements                       Summary of Finding
GAGAS 1.12b      Auditors should include a modified In one examination engagement, a review
                 GAGAS compliance statement in      of direct costs claimed on flexibly priced
                 reports on GAGAS attestation       contracts, the auditor did not include the
                 engagements, as appropriate if the required “GAGAS Peer Review


                                               53
     Cite                     Requirements                          Summary of Finding
                    auditor was unable to and did not    Qualification Statement” in the
                    perform the attestation engagement   February 9, 2010 report. The DCAA
                    in accordance with GAGAS.            Director issued a memorandum to all
                                                         DCAA employees instructing them to
                                                         include a modified GAGAS statement in
                                                         the scope paragraph for all reports issued
                                                         on or after August 27, 2009 because the
                                                         DOD Inspector General opinion on the
                                                         DCAA quality control program expired as
                                                         of that date. (Assignment No. 9731-
                                                         2007B10100017)
AT 42 101.74        The auditor’s decision to provide a In three examination engagements
                    qualified opinion, to disclaim an    discussed below, DCAA did not properly
                    opinion, or to withdraw because of address scope limitations or the needed
                    a scope limitation in an examination report qualification. Failure to provide all
                    engagement depends on an             relevant information in the report
                    assessment of the effect of the      negatively impacts the contracting
                    omitted procedure(s) on his or her   officer’s ability to appropriately negotiate
                    ability to express assurance. The    or administer the contract(s).
                    reasons for a qualification or
                    disclaimer should be described in
                    the auditor’s report.

Qualified           The Qualification paragraph should •                In a FY 2008 Control Environment
Opinion:            include circumstances that result in                examination engagement, DCAA did
CAM 43 10-          a qualified opinion. A qualification                not include the appropriate report
210.4.d             would arise from contractor                         qualification for an access to records
                    deficiencies such as a lack of access               issue. The contractor provided the 85
                    to or inadequate contractor records.                contractor hotline cases that DCAA
                                                                        requested; however, 80 of the 85
Access to           The following conditions qualify as                 cases provided had the information
Records:            an access to records problem:                       redacted. The extensive redactions
CAM 1-504.4.c       restrictions on reproduction of                     eliminated critical information
and .d              necessary supporting evidential                     required by the auditor. This created
                    matter, and partial or complete                     an access to records issue in
                    denial of access to internal audit                  accordance with DCAA guidance
                    data or other management reports                    that the auditor should have
                    on contractor operations.                           recognized as such and qualified the
                                                                        report accordingly. (Assignment No.
                                                                        3311-2008C11070001)


    42
       The AICPA uses the designation of “AT” to reference the various attestation standards. The attestation
    standards referenced in this table are ones which GAGAS incorporates by reference.
    43
       DCAA provides guidance to its auditors in its CAM. CAM references indicate what specific guidance
    DCAA has issued to implement the corresponding GAGAS or attestation standards.


                                                        54
      Cite                  Requirements                            Summary of Finding

Floor Checks:     If labor floor checks or interviews   •     In a FY 2006 incurred cost
CAM 10-           were considered necessary to                examination engagement that included
504.3.b           complete the audit [engagement]             $500,456 in claimed total labor costs,
                  but could not be accomplished               the auditor did not qualify the report
                  concurrently for the period audited,        for lack of a labor floor check as
                  insert the following additional             required by DCAA guidance. The
                  statement in the scope paragraph:           auditor also did not document the
                  “The concurrent verification of             performance of additional steps as
                  (indicate whether labor, materials or       required by DCAA guidance when
                  both) was omitted in this                   there is an omission of labor in the
                  examination (if accomplished in at          examination. In addition, the audit
                  least one year of a multi-year              office failed to assess and describe in
                  examination, state fiscal years             the report the impact of the omitted
                  omitted).”                                  verification of labor costs on the
                                                              engagement results. (Assignment No.
                                                              04171-2006G10100007).

                                                          •   In a FY 2006 incurred cost
                                                              examination engagement that
                                                              included $50,221,659 in claimed
                                                              labor costs, the auditor did not
                                                              qualify the report for nonperformance
                                                              of a labor floor check or non-receipt
                                                              of a requested assist audit as required
                                                              by DCAA guidance. The auditor
                                                              documented during the planning
                                                              phase that the report would be
                                                              qualified due to the inability to
                                                              determine the impact of the lack of
                                                              performance of a labor floor check.
                                                              (Assignment No. 3171-
                                                              2006J10100002)

                                                          •   In the same examination engagement,
Assist Audits:    The report should be qualified if the       the audit office also did not qualify
CAM 10-           incurred cost audit included                the report for non-receipt of a
504.3.b (see      requests for assist audits on               requested assist subcontract audit.
citation above)   subcontract costs that were not             Finally, the auditor did not qualify
and               received in time for incorporation in       the report for two cost accounting
CAM 10-504.4      the final report. The procedure             standards’ noncompliances that
                  provides specific information that          related to several million dollars of
                  the report should include such as           independent research and
                  subcontract number, subcontractor           development costs that were
                  name, claimed/billed amount for the         identified during the engagement.
                  subcontract, name of the audit


                                                55
    Cite                  Requirements                         Summary of Finding
             office performing the assist, and the        (Assignment No. 3171-
             expected due date for the assist             2006J10100002)
             audit report.
GAGAS 6.34   Auditors should report significant       In a budget and planning system
             deficiencies in internal control, or     examination engagement, the auditor did
             combination of deficiencies, that        not identify a system deficiency regarding
             adversely affects the entity’s ability   the lack of written policies and
             to initiate, authorize, record,          procedures. Without this information the
             process, or report data reliably in      contracting officer cannot take the
             accordance with the applicable           appropriate action to have the contractor
             criteria or framework such that          remedy the deficiency. A delay of this
             there is more than a remote              type also causes the Government to
             likelihood that a misstatement of        unnecessarily increase the amount of
             the subject matter that is more than     oversight needed of the contractor.
             inconsequential will not be              (Assignment No. 4301-2009H11020002)
             prevented or detected.
GAGAS 6.42   In presenting findings such as           In a budget and planning system
             deficiencies in internal control,        examination engagement, the auditor did
             auditors should develop the              not write the report using the proper
             elements of the findings to the          format of condition, cause, effect, and
             extent necessary to achieve the          recommendation. Contracting officers
             objectives. GAGAS 6.15 through           require all relevant information to achieve
             6.19 describe clearly developed          an acceptable resolution to the identified
             findings and include criteria,           deficiencies and protect the Government’s
             condition, cause, and effect or          interests. (Assignment No. 4301-
             potential effect.                        2009H11020002)
GAGAS 6.49   Auditors should evaluate the             In an indirect and other direct costs
             validity of the audited entity’s         internal control system examination
             comments when the contractor’s           engagement, the contractor verbally
             comments are inconsistent or in          disagreed with the findings. The auditor
             conflict with the report’s findings,     did not include the disagreement or
             conclusions, or recommendations,         address it in the final report. Failure to
             or when planned corrective actions       rebut all the contractor’s arguments in the
             do not adequately address the            report could delay resolution or correction
             auditors’ recommendations. If the        of the system deficiencies. It allows the
             auditors disagree with the               contractor to argue the points directly
             comments, they should explain in         with the contracting officer without the
             the report their reasons for             DCAA rebuttal being directly available.
             disagreement.                            The contracting officer could decide the
                                                      issues without contacting DCAA,
                                                      assuming that DCAA has no rebuttal
                                                      arguments since they are not reflected in
                                                      the report. (Assignment No. 1721-
                                                      2009B14980001)




                                            56
   Cite                    Requirements                            Summary of Finding
GAGAS 6.56a     Auditors should distribute copies of   In two examination engagements, the
                the reports to other officials         report distribution section did not properly
                responsible for acting on              list all required recipients. The
                engagement findings and                distribution list should act as an official
                recommendations, and to others         record of who received the report.
                authorized to receive such reports.      • In a price proposal examination
                                                              engagement for $417,610, the
                                                              auditor did not list the DCAA
                                                              headquarters financial liaison
                                                              advisor in the report distribution
                                                              section. DCAA policy states that
                                                              financial liaison advisors are to
                                                              receive forward pricing audit reports
                                                              issued to the component they
                                                              service. The report is to be
                                                              distributed to the DCAA
                                                              headquarters financial liaison
                                                              auditor to facilitate the advisor
                                                              answering contracting officer
                                                              questions regarding the report
                                                              contents. This is done so that
                                                              negotiations can proceed
                                                              expeditiously. (Assignment No.
                                                              6701-2010S27000002)

                                                        •   In an incurred cost examination
                                                            engagement at a contractor with
                                                            $149 million in revenue, the auditor
                                                            did not list the applicable non-DoD
                                                            agencies in the report distribution
                                                            section even though the audit office
                                                            specified the use of the non-DoD
                                                            regulation supplements as criteria in
                                                            the scope of audit section of the
                                                            report. Therefore, either the
                                                            appropriate non-DoD agencies did
                                                            not receive the report or the audit
                                                            office incorrectly used non-DoD
                                                            regulations as criteria when
                                                            performing and reporting on the
                                                            engagement. (Assignment No.
                                                            3171-2006J10100002)

   DCAA should assess its guidance on including qualifications in its reports for compliance
   with GAGAS. The current guidance, as referenced in the cases above, does not provide


                                              57
guidance on when and how to add a modified GAGAS compliance statement in the
report. GAGAS 1.12b specifies “…Situations when auditors use modified compliance
statements include scope limitations, such as restrictions on access to records,
government officials or other individuals needed to conduct the audit.” GAGAS 1.12b
also requires certain information be included in the report when using a modified
GAGAS statement which includes:

     •   the applicable requirements not followed;
     •   the reasons for not following the requirements; and
     •   how not following the requirements affected, or could have affected, the
         engagement and the assurance provided.

DCAA should also review the implementation of its guidance to determine whether
auditors are identifying all applicable situations that require report qualifications,
especially those related to access to records issues. Auditors should still qualify reports
for access to records issues even when court decisions limit DCAA’s legal right to have
certain documents. For instance, DCAA interprets two 1988 Fourth Circuit Court of
Appeals decisions 44 as holding that language in the statutes giving DCAA access to
contractor’s books and records did not generally include internal audit reports unrelated
to a specific contract or proposal. However, in certain engagements such as the Overall
Control Environment and Accounting System review or a labor audit, contractor internal
audit reports and the associated working papers contain vital information. Therefore,
when the audit office determines that information is needed to comply with GAGAS,
then the report should be qualified accordingly and the qualification properly explained.
The key issue is whether the auditor determined that the information, records, or data
obtained through interviews was needed to form their opinion.

Written Reports Not Distributed in a Timely Manner
In 20 examination engagements, DCAA did not issue the report in a timely manner.
CAM 10-103.1 requires that reports to be issued on or before the dates specified and, in
any event, as promptly as possible. DCAA guidance also provides that when a specified
reporting date does not allow sufficient time to perform a complete audit, the auditor
should request a time extension. When the extension is granted, it should be confirmed
in writing. To be useful, the report must be timely. Delays in issuing certain reports such
as system reviews and operations audits also result in use of additional auditor time,
sometimes further delaying the report issuance. The auditor has to perform additional
work to update findings which would not have been required if the report was issued
promptly. Untimely reports or the failure to properly coordinate report due date
extensions also negatively impact the contract negotiation or administration timeline.
Examples included:

     •   An accounting system report with an inadequate system opinion was issued


44
 United States v Newport News Shipbuilding and Dry Dock Company, 837 F.2d 162 (4th Cir. 1988) and
United States v Newport News Shipbuilding and Dry Dock Company, 862 F.2d 464 (4th Cir. 1988).


                                                58
       19 months after the entrance conference was held. The significant reporting delay
       allowed the accounting system status to remain adequate based on the previous
       2006 engagement. In addition, the delay impeded the contracting officer from
       taking action to affect timely correction of the deficiencies. (Assignment
       Number 3311-2008C11070001)
   •   For an incurred cost examination engagement, the contracting officer was notified
       of the start date of the engagement, but not informed of significant delays. The
       report was issued 3 years later. This delayed the resolution of $3.8 million in
       questioned overhead costs, a decrease of 2.9 percent in the overhead rate.
       (Assignment Number 9851-2005F10100014)
   •   A report on proposed FY 2009 forward pricing rates was issued 3 months after the
       end of FY 2009 and about 10 months from the requested date. Thus DCAA’s
       recommendations for questioned indirect rates could not be implemented in
       related 2009 contracting actions. (Assignment Number 4181-2009A23000002)
   •   In some examination engagements, when the DCAA auditor requested an
       extension of a due date, the report was still issued 7-10 days after the extended
       due date with no explanation or follow-up notification in the working paper file.
       The delays potentially impacted the contracting officer’s negotiation plans or
       schedules or made the reports irrelevant when the contracting officer decides to
       proceed without the report.

Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   13. Revise existing guidance on reporting scope limitations or qualifications to
       comply with generally accepted government auditing standards paragraph
       1.12b and American Institute of Certified Public Accountants AT 101.74
       requirements.

DCAA Comments
DCAA agreed in principle stating that the DOD IG findings were not exceptions to
guidance, rather implementation issues. DCAA stated that scope limitations and
appropriately qualifying reports were addressed during the Training Initiative on
Performing Quality Audits discussed in response to Recommendation 2. DCAA
considers the actions taken to address the intent of the recommendation to be complete.

Our Response
DCAA comments did not address the intent of the recommendation. We agree that
providing training on reporting scope limitations or qualifications should improve
compliance with the standards; however, DCAA did not address whether its existing
guidance complies with GAGAS 1.12b and AICPA AT 101.74. We request that DCAA


                                           59
provide comments on the final report specifying the action it will take to ensure its
guidance is compliant.

   14. Revise existing training to emphasize to the audit staff the importance of
       including the effect of any access to records issue on the engagement in the
       applicable report.

DCAA Comments
DCAA agreed in principle. DCAA stated that the Defense Contract Audit Institute
Course 6115, Effective Report Writing, that is required for all auditors in their second
year with DCAA, includes a handout of DCAA Instruction 7640.17, “Formal Reporting
Procedures for Denial of Access to Contractor’s Records.” The topic also was covered
under the Training Initiative on Performing Quality Audits discussed in response to
Recommendation 2. DCAA considers the actions to address this recommendation
complete.

Our Response
DCAA comments were responsive. No additional comments are required.

   15. Issue a memorandum to the audit staff re-emphasizing the importance of
       including the effect of any access to records issue on the engagement in the
       applicable report.

DCAA Comments
DCAA agreed in principle. DCAA stated that all DCAA audit staff received training on
scope limitations and denial of access to records during the Training Initiative on
Performing Quality Audits provided from December 2010 and April 2011. DCAA
considers the actions taken to address the intent of this recommendation complete.

Our Response
DCAA comments were responsive. No additional comments are required.

Agreed-Upon Procedures Engagements
Inadequate Planning and Performance
DCAA did not exercise professional judgment in planning and performing the two
agreed-upon procedures engagements we reviewed, Assignment Numbers 4141-
2009B28000001 and 4601-2010S28000001. The difference between performing an
agreed-upon procedures engagement and other attestation engagements is that the
requester takes responsibility for defining the procedures to be performed during the
engagement. AT Section 201.03 defines an agreed-upon procedures engagement as one
in which the auditor is engaged by a client to issue a report of findings based on specific
procedures performed on the subject matter. The auditor assists the specified parties in
evaluating the subject matter or an assertion based on the specified parties’ needs.


                                             60
Therefore, obtaining all specified parties’ (requester and users) agreement with the
specific procedures to be performed and properly defining the agreed-upon procedures to
be performed are key factors to complying with GAGAS and the AICPA standards. In
the two reviewed engagements, DCAA met neither requirement. Because the two
reviewed agreed-upon procedures engagements were planned and performed as assist
audits 45 for other DCAA offices, DCAA failed to obtain this agreement with the original
requesters. The agreed-to procedures that DCAA auditors performed also were not
adequately defined or did not otherwise meet AICPA requirements. This is a repeat
finding from a report previously issued on May 1, 2007. Our review also identified other
deficiencies in auditor communication during planning and obtaining evidence. Based on
the deficiencies identified, neither report should have been issued.


DCAA Assist Audits Performed Without Obtaining All Users’
Agreement
DCAA planned and performed both reviewed agreed-upon procedures engagements as
assist audits for another DCAA audit office. AT 201.03 defines specified parties to
include the requester who has engaged the auditor to assist the specified parties in
evaluating an assertion or subject matter based on the identified specified parties needs.
Additionally, AT 601.16 46 explains that the objective of an agreed-upon procedures
engagement is to present specific findings to assist users in evaluating an entity’s
compliance with specified requirements. In both engagements, the original requester was
also a specified party to the assist audit since the original requester was the end user of
the work performed under the assist audit. AT 201.07 and AT 601.18 state that the
auditor should ordinarily communicate directly with all specified parties or users to
obtain an affirmative acknowledgement on the procedures to be performed from each of
them. AT 201.11 emphasizes that the requester and other users, the specified parties, are
responsible for the sufficiency of the agreed-to procedures because they best understand
their own needs. In neither engagement did the audit office performing the assist audit
obtain agreement on the procedures to be performed from the original requester. The
DCAA audit office that requested the assist audit also did not obtain the original
requester’s agreement on the procedures. Because the requester and other users assume
the risk that the procedures might be insufficient for their purposes, it is especially
important that the end user understand and agree to the procedures to be performed.
According to AT 201.07 and AT 601.18, the auditor should not report on an engagement


45
   Assist audits refer to the situation where one DCAA auditor at one location is furnished assistance in the
form of a GAGAS-compliant engagement or audit by a DCAA auditor at another location. DCAA audit
offices perform work at contractor locations within a defined geographic location and a prime contractor
may include costs not supported by the books and records maintained at its geographic location. DCAA
audit offices generally perform assist audits on subcontracts, offsite labor, or on costs which are allocated
from or to records which are maintained at home offices, other divisions, segments, cost centers, etc. The
DCAA audit office cognizant of the prime contractor is responsible for identifying the elements of cost
requiring assist audits and requesting the assist audits.
46
   DCAA generally follows AT Section 601, Compliance Attestation, when performing its attestation
engagements. AT 601 provides requirements in addition to the general requirements specified in AT
Sections 20, 50, 101, and 201.


                                                     61
when specified parties or specified users do not agree on the procedures to be performed
and do not take responsibility for the sufficiency of the procedures for their purposes.
DCAA should not have performed the two assist audits as agreed-upon procedures
engagements using the existing DCAA guidance.

Noncompliance with Requirements to Define Procedures
The procedures that DCAA agreed to perform in both engagements did not comply with
the AICPA definition or criteria for acceptable procedures for this engagement type.
AT 201.15 and AT 601.17 recognize that the procedures that the auditor and specified
parties or users agree to may be as limited or as extensive as the specified parties desire.
However, the standards require that certain criteria be met. Table 7 below summarizes
the various deficiencies our review identified in the two reviewed engagements relating
to the relevant standards. The identified deficiencies are similar to noncompliances
reported on in our May 1, 2007 report discussed below.

          Table 7. Deficiencies in Defining the Procedures to Be Performed
 Assignment Number                                   Deficiency Identified
4141-2009B28000001        Neither of the two agreed-upon procedures performed in this
                          engagement complied with the standards’ requirements.
                          • Procedure 1 did not define ‘available’ which was used as criteria in
                              the agreed-to procedure. AT 201.16 provides that the auditor should
                              not agree to perform overly subjective procedures that are possibly
                              open to varying interpretations. Terms of uncertain meaning should
                              not be used in describing the procedures unless the terms are defined
                              within the procedure. Procedure 1 did not comply with this
                              requirement.
                          • Procedure 1 also did not include a time period. AT 201.15 requires
                              that the nature, timing, and extent of the procedures be agreed to.
                              The time period to be covered by the procedure is critical to the
                              finding’s usefulness to the requester and other users.
                          • Procedure 2 only required the auditor to provide the requester with
                              specific backup documents. AT 201.15 provides that a procedure
                              cannot be just the reading of an assertion or specified information
                              about the subject matter because performing this type of procedure
                              does not produce results for the auditor to report on. Therefore,
                              providing backup documentation is also not an acceptable procedure
                              because this task also does not result in a finding for the auditor to
                              report on.
4601-2010S28000001        The procedure performed in this engagement did not meet the standards
                          for two reasons.
                          • The criteria used to perform the procedure were not properly defined
                              as required by AT 201.16 discussed above.
                          • The auditor did not apply the agreed-upon procedures on the third
                              quarter data submitted with the request, but instead used the fourth
                              quarter forecast data the audit office obtained from the contractor
                              component responsible for generating the data. Therefore, the


                                             62
     Assignment Number                                         Deficiency Identified
                                   auditor did not have a formal agreement with all the users as to the
                                   time period to be covered by the agreed-to procedure as required by
                                   AT 201.15 discussed above. Because the assist audit covered fourth
                                   quarter data instead of third quarter data, its results did not cover the
                                   same time period as the audit of the prime contractor. This
                                   increased the end user’s risk of misunderstanding or inappropriately
                                   using the information provided.

DCAA should ensure that the correct definition of the agreed to procedures is applied by
its audit staff when performing agreed-upon procedures engagements to prevent
misinterpretation or inappropriate use of the findings by users.

Other Noncompliances Impacted the Usefulness of the Work
Performed
Our review identified other significant noncompliances in the two reviewed engagements
that increased the users’ risk that they might misunderstand or otherwise inappropriately
use the findings reported by the audit offices. Table 8 below summarizes the identified
deficiencies.

     Table 8. Other Noncompliances Identified in Reviewed Agreed-Upon Procedures
                                    Engagements
     Assignment Number                                      Noncompliance Identified
4141-2009B28000001             • The engagement did not comply with GAGAS 6.06                 requirement
                                 to obtain written acknowledgement or other evidence of the entity’s
                                 responsibilities for the subject matter or the written assertion as it
                                 relates to the objectives of the engagement. The DCAA assist audit
                                 request references a prime contractor’s claim that the subcontractor
                                 costs met the Federal Acquisition Regulation exception for
                                 commerciality and attached a copy of a subcontractor invoice to
                                 identify the pertinent part. The auditor did not obtain the required
                                 written acknowledgement or other evidence of the subcontractor’s
                                 responsibility for the written assertion as it relates to the engagement
                                 objectives. The prime contractor cannot take responsibility for a
                                 subcontractor’s claim that a specific item complies with the
                                 regulatory exception for commerciality 47 because the commerciality




47
   Federal Acquisition Regulation Subpart 2.101 defined a “commercial item” as any item, other than real
property, that is of a type customarily used for nongovernmental purposes and that: (i) has been sold,
leased, or licensed to the general public; (ii) has been offered for sale, lease, or license to the general
public; (iii) has evolved from a commercial item that is sold or offered for sale as a result of technological
advancement; (iv) requires either modification of a type that is customarily available in the commercial
market place or minor modifications for unique Government purposes; or (v) any combination of the above
items.


                                                     63
     Assignment Number                                     Noncompliance Identified
                                   exception is based on sales data 48 that the prime contractor either
                                   does not have access to or control of. Proper identification of the
                                   assertion to be reviewed by the requester or the entity responsible for
                                   the assertion is required to ensure that the end user obtains the
                                   correct information.

                              • The engagement also did not comply with the GAGAS 6.04b
                                requirement to obtain sufficient evidence to support the report.
                                Additionally, the engagement did not comply with AT 201.16
                                requirements to obtain evidential matter from applying the agreed-
                                upon procedure to provide a reasonable basis for the finding(s)
                                expressed in the report. The auditor did not verify or obtain
                                sufficient evidence that the end users were not state, local, or Federal
                                Government, or companies acting on behalf of the Government.
                                Using these criteria is a key factor in determining whether an item
                                qualifies for a commerciality exemption for submittal of certified
                                cost or pricing data. The request specifically clarified the criteria to
                                be used by including that definition for general public. Therefore,
                                the contracting officer relied on inaccurate information during
                                negotiations.

                              • Neither engagement complied with the GAGAS 6.07 requirements
4141-2009B28000001              to communicate, in writing, the auditor’s understanding of the
and                             services to be performed to the appropriate officials of the entity’s
4601-2010S28000001              management. Our review also identified this noncompliance in all
                                of the examination engagements we reviewed. Additional
                                information on this noncompliance is provided in the ‘Auditor
                                Communication During Planning’ section of this report.

Inadequate Implementation of DCAA Training on Agreed-Upon
Procedures
The audit staff who worked on both engagements did not take CMTL (Computer
Managed Training Library) No. 1249, Agreed-Upon Procedures, prior to performing the
agreed-upon procedures engagement. This training is required by MRD 08-PSP-030,
“Audit Guidance on Agreed-Upon Procedures (AUP) Engagements,” dated
September 24, 2008. DCAA headquarters established this requirement after issuance of
DOD IG Report Number D-2007-6-006 dated May 1, 2007, that identified similar
deficiencies as those described. The identified deficiencies included:

      •   Failure to comply with key GAGAS or AICPA attestation standards as
          incorporated in GAGAS.


48
  Per Federal Acquisition Regulation Subpart 15.403-1(b), a contracting officer shall not require certified
cost or pricing data to support a pricing action when a commercial item is being acquired.


                                                     64
   •   No evidence that the requester agreed to or accepted responsibility for the
       procedures performed.
   •   Criteria were not appropriately defined. Procedures were not appropriately
       defined.
   •   All reporting requirements were not met.

In response to the report findings and recommendations, DCAA also revised its guidance
on performing agreed-upon procedures engagements and planned to continue monitoring
this type of engagement until DCAA management was satisfied that compliance with
GAGAS had improved. Prior to the establishment of the September 24, 2008 training
requirement and while field work was ongoing, DCAA issued a November 9, 2006,
memorandum that transmitted headquarters-provided training materials to assist regional
and Field Detachment office staff to monitor agreed-upon procedures engagements. The
training was to be completed by January 31, 2007.

Despite these initiatives, for the two reviewed agreed-upon procedures engagements, the
audit offices did not comply with GAGAS 3.45           requirements that auditors should be
knowledgeable of and be competent in applying the AICPA general attestation standard
related to criteria, the AICPA attestation standards for field work and reporting, and the
related Statements on Standards for Attestation Engagements. The audit staff did not
collectively possess sufficient knowledge to perform the engagement. The lack of
knowledge or training contributed to the audit offices not performing the agreed-upon
procedures engagements correctly.

DCAA Guidance on Agreed-Upon Procedures Needs Further
Improvement
The DCAA CAM and the applicable standard audit programs do not provide adequate
guidance on performing an agreed-upon procedures engagement as an assist audit. CAM
14-1001(b) explains that under GAGAS, DCAA may perform an agreed-upon procedures
engagement for any assignment if: (1) the subject matter or assertion to which the
procedures are to be applied is subject to reasonably consistent measurement; (2) the
requester and DCAA agree on the nature, timing and extent of the procedures to be
applied, including the criteria to be used; and (3) the requester assumes responsibility for
the sufficiency of the procedures. However, the DCAA guidance does not cover the
additional steps required when an assist audit is requested or performed. Therefore, the
DCAA guidance does not address the additional AICPA requirements in AT 201.15 and
AT 601.18 that require [all] specified parties or users to agree to the procedures.

Revised Finding and Recommendation
We have added additional AICPA attestation standard references to the finding and
Recommendation 16 to further clarify the requirements.




                                            65
Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

   16. Revise existing guidance on performing agreed-upon procedures
       engagements as assist audits to fully comply with the American Institute of
       Certified Public Accountants AT 201.15 and AT 601.18 requirements.

DCAA Comments
DCAA did not agree stating that the contracting officer was not a specified party to the
assist agreed-upon procedures engagements reviewed by the DOD IG. DCAA also stated
that the requesting audit office determined the procedures to be performed as part of its
audit assignment and accepted responsibility for those procedures. Therefore, the
contracting officer was not a specified party to the agreed-upon procedures and the audit
office was not required to obtain the contracting officer’s agreement on the procedures
performed by the assist audit office.

Our Response
DCAA comments were nonresponsive. We consider the contracting officer a specified
party within the context of AT 201.03 and other referenced attestation standards included
in the body of this finding. DCAA’s main function is to perform contract audits for use
by DoD procurement and contract administration offices. As such, another DoD
component is generally the end user of DCAA reports. DCAA issued the reports under
the reviewed assignments for contracting officer use during negotiations of contracts with
contractors. We request that DCAA reconsider its position, and provide comments on the
final report.

   17. Provide training on performing generic agreed-upon procedures
       engagements to all DCAA auditors using training from an outside source
       such as the American Institute of Certified Public Accountants.

DCAA Comments
DCAA did not agree stating that providing agreed-upon procedures training to the audit
staff would not be a responsible use of resources because the percentage of agreed-upon
procedures assignments that DCAA performs is very low (approximately 1.3 percent in
FY 2012).

Our Response
DCAA comments were not responsive to the intent of the recommendation. DCAA
assignments have consistently not complied with all attestation standards when
performing agreed-upon procedures engagements. Any DCAA auditor could be assigned



                                           66
this type of assignment. For performing attestation engagements, GAGAS requires
auditors to be knowledgeable of the applicable AICPA standards and guidance and be
competent in applying the standards and guidance to the task assigned. Therefore, all
DCAA auditors need training on performing agreed-upon procedures engagements. This
training can be part of a more comprehensive training class. DCAA should reconsider its
position on this recommendation and provide comments on the final report.

Performance Audit
Operations audits 49 are the only type of assignment that DCAA conducts as a
performance audit 50 which is covered by GAGAS Chapters 6 and 7. The operations audit
reviewed, Assignment Number 2241-2009B10501001, is 1 of the 37 assignments that
demonstrated a lack of professional judgment. We based our determination on the
deficiencies identified in multiple standards which included planning, communications,
evidence, documentation, supervision, and reporting. The end result was an ineffective
audit that took 9 months to complete and provided cost avoidance recommendations
related to a contract task order that expired within weeks of report issuance. The waste of
more than 1,100 audit hours, valued at about $118,700, is of particular concern since the
audit office in Afghanistan, which has limited resources to conduct high-risk, critical
audits, performed the audit.

Deficient Planning Negatively Impacted Completion of
Assignment
DCAA set up the operations audit we reviewed to evaluate the contractor’s effectiveness
in supporting operations under a logistics contract in Afghanistan. However, the audit
office did not adequately plan the audit to address the objectives as required by
GAGAS 7.06. We identified numerous deficiencies in the audit planning which resulted
in a performance audit without a definitive audit objective or plan.

     •   The risk assessment did not comply with GAGAS 7.11a and 7.13 requirements.
         The risk assessment did not consider all the relevant contract and task order
         information nor did it adequately document a sufficient understanding of contract
         requirements necessary to plan the audit. The auditor did not consider the impact
         of contractor operations on the logistics contract in Afghanistan ending within the
         year. Neither did the auditor consider the relevancy of the processes selected for
         review to the contractor’s other operations in Southwest Asia or to future task


49
   An operations audit is performed to inquire into contractor management and operational decisions that
affect the nature and level of costs being proposed and charged to Government contracts. The auditor uses
the knowledge gained from the audit as the basis for constructive recommendations to the contractor to
improve its internal control structure and the economy and efficiency of its operations.
50
   GAGAS 1.25 defines performance audits as “…engagements that provide assurance or conclusions based
on an evaluation of sufficient, appropriate evidence against stated criteria, such as specific requirements,
measures, or defined business practices. Performance audits provide objective analysis so that management
and those charged with governance and oversight can use the information to improve program performance
and operations, reduce costs, facilitate decision making by parties with responsibility to oversee or initiate
corrective actions, and contribute to public accountability.”


                                                     67
       orders on the follow-on logistics contract, if won. GAGAS requires auditors to
       assess audit risk and significance by obtaining an understanding of the nature of
       the program being audited and the potential use of the report.
   •   The auditor did not identify the sources of audit evidence, and the amount and
       type of evidence needed, given the audit risk and significance as required by
       GAGAS 7.12. The auditor listed general areas to probe in the risk assessment
       conclusion and did not identify the criteria and source documents to be used to
       perform the probe testing. This level of specificity was essential for the auditor to
       make a reasonable assessment from the probe testing on whether the contractor
       could achieve a significant cost avoidance in the reviewed area. Using this
       assessment the auditor would further determine whether a more detailed review of
       that area should be performed. In addition, the auditor did not perform any probe
       testing procedures for several of the areas listed in the risk assessment and did not
       document the basis for the decision not to perform any.
   •   The auditor did not adequately document the critical ‘go or no go’ decision. The
       related working paper did not explain the basis for the determination that certain
       areas were a ‘go,’ e.g. labor management, and certain were a ‘no go,’ e.g. build-
       up and draw down operations and subcontract processes. GAGAS 7.50 requires
       auditors to prepare a written plan that contains key decisions about the audit
       objectives, scope and methodology; and the auditor’s basis for those decisions.
   •   The working papers did not have a detailed audit plan to review the labor
       management area determined to be a ‘go’ for evaluation. GAGAS 7.50 provides
       that the auditor should update the plan, as needed, to reflect any significant
       changes to the plan made during the audit. The decision to evaluate the labor
       management process required the auditor to formulate procedures to address the
       audit objectives for reviewing this process.
   •   The supervisory auditor did not properly supervise the audit planning as
       evidenced by the numerous deficiencies we identified. GAGAS 7.51 requires
       audit organization management to supervise audit planning and determine
       whether the audit plan adequately addresses relevant risks, the proposed scope
       and methodology are adequate to address the audit objectives, and available
       evidence is likely to be sufficient and appropriate for the purposes of the audit.

The numerous audit planning deficiencies led to a poorly executed audit.

Inadequate Documentation and Insufficient Evidence
The auditor did not adequately document the work performed in this audit and did not
provide sufficient evidence to support the report conclusions and recommendations. A
supporting working paper was missing and others were not referenced back to audit steps,
causing the assignment to be difficult to follow. GAGAS 7.77 requires auditors to
prepare audit documentation in sufficient detail to enable an experienced auditor, having
no previous connection to the audit, to understand from the audit documentation the
nature, timing, extent, and results of procedures performed, the audit evidence obtained,
and its source and the conclusions reached. The poor quality of audit documentation also
contributed to deficiencies identified with the sufficiency of the evidence. The auditor
did not provide sufficient evidence to support the revised recommended cost avoidance


                                            68
amount. GAGAS 7.55 states that auditors must obtain sufficient, appropriate evidence to
provide a reasonable basis for their findings and conclusions. The original auditor
identified seven findings on labor management and staffing in Afghanistan and calculated
a cost avoidance of over $32 million, which was included in the draft report. Several
months later, another auditor determined that only one of the original conditions was
valid based on the contractor’s response to the draft report. The second auditor
recalculated the cost avoidance of $564,000 based on the expiring task order. However,
the documented audit evidence does not support this audit conclusion. We were unable
to determine from the inadequate and incomplete documentation what procedures were
performed or additional evidence was obtained for the auditor to negate most of the
original findings and significantly reduce the recommended cost avoidance amount.

Ineffective Supervision
Supervision of this audit was ineffective and failed to correct the significant deficiencies
identified in audit planning, execution, and reporting. GAGAS 7.53 requires that audit
supervisors properly supervise audit staff. The audit working papers contained some
documented supervisory and management reviews of the audit; however, neither the
supervisor nor audit manager signed off on the revised working papers, including the
revised audit summary working paper that determined the original conditions and cost
avoidance amount were not valid. GAGAS 7.80c provides that supervisory review of the
work performed supporting findings, conclusions, and recommendations in the audit
report should be documented prior to report issuance. The lack of documented supervisor
or management review of these key working papers directly contributed to the
deficiencies identified in the report as discussed in the next paragraph.

Deficiencies in Reporting
The final audit report contained several significant flaws. As previously discussed, the
report was not timely or useful since the contractor’s operations were ending in
Afghanistan and the task order on which the cost avoidance was calculated was to expire
shortly after the report issuance. The report also did not explain how the
recommendations to improve the efficiency of the labor management process would
positively impact the contractor’s other operations in Southwest Asia. Additionally, the
final report was confusing and difficult to understand. It listed all seven original findings
from the draft report even though the audit office determined that only one finding should
be reported after considering the contractor’s response to the draft report. GAGAS 8.36
requires the auditor to modify the report when the auditor decides that the contractor’s
comments disagreeing with audit findings are valid. Therefore, the auditor should have
included only the one finding in the final report. Also, while the contractor agreed with
the one reported finding, the auditor did not obtain the contractor’s position on the
methodology used to calculate the cost avoidance. GAGAS emphasizes the importance
of obtaining auditee comments to the development of a fair, complete, and objective
report. GAGAS also permits the use of oral comments in certain circumstances. If the
contractor disagrees with the recommended cost avoidance, the contracting officer’s
overall determination on the report recommendations is more difficult or time consuming
without the auditor’s rebuttal comments readily available. Finally, the audit office and
regional technical specialists debated whether the report should be issued. The report, as


                                             69
written, should not have been issued. It should either be supplemented to make it
applicable to current or future contractor operations or rescinded as recommended in
Recommendation 1 of this report.




                                           70
Appendix A. Scope and Methodology
We conducted this review from January 2010 through July 2012 in accordance with the
Quality Standards for Inspection and Evaluation issued by the CIGIE. 51

We accomplished our review of each report and its working papers using a standard
checklist adapted from the checklist(s) in the CIGIE “Guide for Conducting External Peer
Reviews of the Audit Organizations of Federal Offices of Inspector General,”
March 2009. We used the 2007 version of GAGAS issued by the Comptroller General of
the United States, GAO-07-731G, to review the selected assignments. In performing our
review, we assessed, reviewed, and evaluated:

     •   the independence documentation to verify compliance with GAGAS requirements
         and the measures that enable the identification of independence impairments;
     •   records of continuing professional education to verify compliance with GAGAS
         requirements; and
     •   50 assignments and related project documentation to determine whether
         applicable standards and established policies and procedures were followed.

We selected the assignments to review using the DCAA Management Information
System Analysis of the World reports for the first and second quarters of FY 2010. We
determined how many of each type of engagements to review based on the number of
those types of engagements DCAA completed in each quarter. In selecting the individual
assignments to review, we obtained:

     •   a representative selection from all five regions and the Field Detachment; and
     •   a representative range of assignments performed by the subcategory. For
         instance, incurred cost audit engagements selected included engagements
         performed at both large and small contractors.

Table A briefly summarizes our assignment selection by region and Field Detachment
and types of assignments.




51
  The Inspector General Reform Act of 2008, Public Law 110-409, created the CIGIE by combining what
were formerly known as the President’s Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency. The prior version of this publication was issued by the two predecessor
organizations in January 2005 and was revised by CIGIE in January 2011.


                                                  71
     Table A. Assignments Selected for Review by Assignment Type and by Region and
                                    Field Detachment
                                             DCAA REGION OR FIELD DETACHMENT
 Type of             Total          Central Eastern Northeastern  Mid-    Western    Field
Assignment         Number of                                     Atlantic         Detachment
                  Assignments
                    Selected
Forward
Pricing 52              21              4           3               4               3            5              2
Internal                 7              2           2               1               1            1              0
Control
System
Reviews 53
Incurred                12              3           1               2               2            2              2
Cost
Audits 54
All Other 55            10              0           3               2               3            1              1
Total                   50              9           9               9               9            9              5
Assignments
Reviewed

    In addition, we reviewed all work referenced in the selected assignments including work
    performed in other assignments. Information on the deficiencies identified by individual
    assignments reviewed can be found in Appendix B, Summary of Review Findings by
    Assignment.

    Use of Computer-Processed Data
    We did not rely on any computer-processed data as part of our review.

    Prior Coverage
    During the last 5 years, the GAO and DOD IG have issued 12 reports related to similar
    issues with DCAA that are addressed in this report. The unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov/, and unrestricted DOD Inspector
    General reports can be accessed at http://www.dodig.mil.

    52
       Forward pricing assignments included forward pricing proposal audits, forward pricing rate agreement
    audits, pre-award accounting system reviews, parts of a proposal audits, and agreed-upon procedures
    attestation engagements.
    53
       Internal Control Systems Reviews included a cross section of the various 10 internal control system
    reviews as explained in the ‘Evidence’ section of this report.
    54
       Incurred Cost Audits deal with establishing final indirect rates and auditing the indirect and direct costs
    for the contractor’s fiscal year.
    55
       All Other assignments included a postaward audit, operations audit, termination, floor check, equitable
    adjustment, financial capability, two Cost Accounting Standards compliance reviews, and two special
    assignments.


                                                          72
GAO
GAO Report No. GAO-12-88, “Actions Needed to Improve DCAA’s Access to and Use
of Defense Company Internal Audit Reports,” December 2011

GAO Report No. GAO-09-468, “Widespread Problems with Audit Quality Require
Significant Reform,” September 2009

GAO Report No. GAO-08-857, “DCAA AUDITS: Allegations That Certain Audits at
Three Locations Did Not Meet Professional Standards Were Substantiated,”
July 22, 2008

DOD IG
DOD IG Report No. DODIG-2013-015, “Actions to Align Defense Contract
Management Agency and Defense Contract Audit Agency Functions,”
November 13, 2012

DOD IG Report No. DODIG-2012-038, “Hotline Complaint Concerning Inadequate
Audit Services Provided by an Audit Team in the Defense Contract Audit Agency Mid-
Atlantic Region,” January 10, 2012

DOD IG Report No. D-2011-6-011, “Report on Hotline Allegation Regarding Lack of
Agency Guidance on the Currency of Audit Testing in the Defense Contract Audit
Agency,” September 21, 2011

DOD IG Report No. D-2011-6-010, “Report on Failure of Defense Contract Audit
Agency, Santa Ana Branch Office to Provide Adequate Support in Response to a Request
for Review of Interim Public Vouchers,” September 2, 2011

DOD IG Report No. D-2011-6-004, “Report on Quality Control Review of the Price
Waterhouse Coopers, LLP and Defense Contract Audit Agency FY 2008 Single Audit of
the Charles Stark Draper Laboratory, Incorporated,” February 28, 2011

DOD IG Report No. D-2011-6-002, “Report on Quality Control Review of Deloitte &
Touche, LLP and DCAA FY 2008 Single Audit of the Aerospace Corporation,”
October 29, 2010

DOD IG Report No. D-2009-6-009, “Audit Work Deficiencies and Abusive Work
Environment Identified by the Government Accountability Office,” August 31, 2009

DOD IG Report No. D-2007-6-006, “Review of the Defense Contract Audit Agency
Quality Control System,” May 1, 2007

DOD IG Report No. D-2007-6-005, “Congressional Inquiry Concerning Allegations at
the Defense Contract Audit Agency Lockheed Martin Rockville Resident Office,”
April 25, 2007



                                         73
Appendix B. Summary of Deficiencies
Identified With Government Auditing
Standards By Individual Assignment
The schedule beginning on the next page summarizes our findings for each of the
50 assignments we reviewed. The schedule provides our assessment of whether the
assignment complied with the GAGAS requirements for Professional Judgment,
Independence, Competence, Quality Control, Planning, Evidence, Documentation,
Supervision, and Reporting. Assignments in rows 1 through 47 in the schedule were
performed as examination engagements; assignments in rows 48 and 49 were performed
as agreed-upon procedures engagements; and the assignment listed in row 50 was
performed as a performance audit. A “Yes” response in the column indicates that the
assignment complied with the standard and a “No” response indicates that the assignment
did not comply with the standard.




                                          74
                                      Summary of Deficiencies with Government Auditing Standards Identified by Individual Assignment
                                    PROFESSIONAL
  ASSIGNMENT NUMBER                   JUDGMENT          INDEPENDENCE           COMPETENCE          QUALITY CONTROL            PLANNING     COMMUNICATION   EVIDENCE   DOCUMENTATION   SUPERVISION   REPORTING
                                                                                                                       INCURRED COST


     9851-2005F10100014                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     9731-2007B10100017                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     6161-2005A10100022                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     3541-2008K10100001                 Yes                   Yes                    Yes                    Yes                      Yes        No           Yes           Yes            Yes          Yes


     3171-2006J10100002                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     2201-2006F10100003                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     4281-2005A10100006                  No                   Yes                    Yes                    No                       No         No            No           Yes            No           No


     1271-2007S10100011                 Yes                   Yes                    Yes                    No                       Yes        No           Yes           Yes            Yes          Yes


     2161-2006P10100005                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     4171-2006G10100007                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     3201-2007G10100023                 Yes                   Yes                    Yes                    Yes                      Yes        No           Yes           No             Yes          Yes


     6151-2007N10100001                  No                   Yes                    Yes                    No                       Yes        No            No           No             No           No
                                                                                                         DEFECTIVE PRICING/POST AWARD REVIEW


     6341-2008D42000026                  No                   Yes                    Yes                    No                       No         No            No           No             No           No
                                                                                                                        FLOOR CHECK


     6211-2009C13500003                  No                    No                     No                    No                       No         No            No           No             No           No
                                                                                                                        TERMINATION


     1241-2009H17100003                  No                   Yes                    Yes                    No                       No         No            No           No             No           No
                                                                                                                  EQUITABLE ADJUSTMENT


     2901-2010A17200001                 Yes                   Yes                    Yes                    No                       Yes        No           Yes           Yes            Yes          Yes
                                                                                                                   FINANCIAL CAPABILITY


     1621-2010C17600001                 Yes                   Yes                    Yes                    Yes                      Yes        No           Yes           Yes            Yes          Yes




_________________________________

"No" indicates assignment did not comply with the specific standard.
"Yes" indicates assignment complied with the specific standard.
If Professional Judgment indicates a "No" response, Supervision, Quality Control, and Reporting will also indicate "No" responses.




                                                                                                                               75
                                      Summary of Deficiencies with Government Auditing Standards Identified by Individual Assignment
                                    PROFESSIONAL
  ASSIGNMENT NUMBER                   JUDGMENT          INDEPENDENCE           COMPETENCE          QUALITY CONTROL            PLANNING     COMMUNICATION   EVIDENCE   DOCUMENTATION   SUPERVISION   REPORTING
                                                                                                                       SPECIAL AUDIT


     1661-2009H17900002                 Yes                    No                    Yes                    No                       No         No           Yes           Yes            Yes          Yes


     4901-2008W17900010                  No                   Yes                    Yes                    No                       No         No            No           No             No           No
                                                                                                              COST ACCOUNTING STANDARDS


     9811-2009A19100001                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     6141-2008M19418001                  No                   Yes                    Yes                    No                       Yes        No            No           No             No           No
                                                                                                           INTERNAL CONTROL SYSTEM REVIEWS



     2641-2009C11010001                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     4301-2009H11020002                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     3311-2008C11070001                  No                    No                    Yes                    No                       No         No            No           No             No           No


     6381-2009G11590001                 Yes                   Yes                    Yes                    No                       No         No            No           Yes            No           Yes


     1721-2009B14980001                  No                    No                    Yes                    No                       Yes        No            No           No             No           No


     1261-2010A12030001                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     3191-2009F13010001                  No                   Yes                    Yes                    No                       No         No            No           No             No           No
                                                                                                                     FORWARD PRICING


     3531-2009L21000011                 Yes                   Yes                    Yes                    No                       No         No           Yes           Yes            No           Yes


     9861-2009P21000019                  No                   Yes                     No                    No                       No         No            No           No             No           No


     1461-2010D21000003                 Yes                   Yes                    Yes                    No                       Yes        No           Yes           No             No           Yes


     3121-2009H21000024                  No                   Yes                    Yes                    No                       No         No            No           Yes            No           No


     6321-2009U23000001                  No                   Yes                    Yes                    No                       No         No            No           Yes            No           No


     2651-2009H23000006                  No                   Yes                    Yes                    No                       No         No            No           Yes            No           No


     1301-2009B23000004                  No                   Yes                    Yes                    No                       No         No            No           Yes            No           No


     4181-2009A23000002                  No                   Yes                    Yes                    No                       No         No            No           No             No           No
_________________________________

"No" indicates assignment did not comply with the specific standard.
"Yes" indicates assignment complied with the specific standard.
If Professional Judgment indicates a "No" response, Supervision, Quality Control, and Reporting will also indicate "No" responses.



                                                                                                                               76
                                      Summary of Deficiencies with Government Auditing Standards Identified by Individual Assignment
                                    PROFESSIONAL
  ASSIGNMENT NUMBER                   JUDGMENT          INDEPENDENCE           COMPETENCE          QUALITY CONTROL            PLANNING     COMMUNICATION   EVIDENCE   DOCUMENTATION   SUPERVISION   REPORTING


     2501-2010H21000002                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     1251-2009F21000006                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     3561-2009D21000013                 Yes                   Yes                    Yes                    No                       Yes        No            No           No             Yes          Yes


     2801-2009G21000041                  No                   Yes                    Yes                    No                       Yes        No            No           No             No           No


     4721-2010L21000001                  No                   Yes                    Yes                    No                       Yes        No            No           No             No           No


     4261-2009T21000003                 Yes                   Yes                    Yes                    No                       Yes        No           Yes           Yes            No           Yes
                                                                                                                   PARTS OF A PROPOSAL


     9761-2009T27000040                 Yes                   Yes                     No                    No                       Yes        No           Yes           Yes            Yes          Yes


     3521-2010V27000003                  No                   Yes                    Yes                    No                       No         No            No           No             No           No


     2211-2010N27000001                  No                   Yes                    Yes                    No                       Yes        No            No           No             No           No


     6701-2010S27000002                 Yes                   Yes                    Yes                    Yes             Yes                 No           Yes           Yes            Yes          Yes
                                                                                                              ACCOUNTING SYSTEM REVIEW


     6431-2009B17740013                  No                    No                    Yes                    No                       No         No            No           No             No           No
SUBTOTAL (NUMBER OF
EXAMINATION
ENGAGEMENTS WITH "NO"
RESPONSES)                              34                     5                      3                     43                       31         47           36            32             38           34
                                                                                                                 AGREED-UPON PROCEDURES


     4141-2009B28000001                  No                   Yes                     No                    No                       No         No            No           Yes            No           No


     4601-2010S28000001                  No                   Yes                     No                    No                       No         No            No           No             No           No
                                                                                                                    PERFORMANCE AUDIT


     2241-2009B10501001                  No                   Yes                    Yes                    No                       No         No            No           No             No           No

SUBTOTAL (NUMBER OF
OTHER ENGAGEMENTS
WITH "NO" RESPONSES)                     3                     0                      2                      3                       3           3            3             2             3             3
GRAND TOTAL (NUMBER OF
ALL ENGAGEMENTS WITH
"NO" RESPONSES)                         37                     5                      5                     46                       34         50           39            34             41           37

_________________________________

"No" indicates assignment did not comply with the specific standard.
"Yes" indicates assignment complied with the specific standard.
If Professional Judgment indicates a "No" response, Supervision, Quality Control, and Reporting will also indicate "No" responses.




                                                                                                                               77
Defense Contract Audit Agency Comments




                    78
79
80
81
82
     Final Report
      Reference




     Deleted




83
     Final Report
      Reference




     Renumbered
     as
     Recommend
     ation 4a




84
     Final Report
      Reference




     Renumbered
     as
     Recommend
     ation 4b


     Renumbered
     as
     Recommend
     ation 4c




85
     Final Report
      Reference




     Renumbered
     as
     Recommend
     ation 5




     Renumbered
     as
     Recommend
     ation 6




     Renumbered
     as
     Recommend
     ation 7




86
     Final Report
      Reference




     Pages 22-25




     Renumbered
     as
     Recommend
     ation 8




87
     Final Report
      Reference




     Renumbered
     as
     Recommend
     ation 9




88
     Final Report
      Reference




     Renumbered
     as
     Recommend
     ation 10




     Revised and
     renumbered
     as
     Recommend
     ation 11a


     Renumbered
     as
     Recommend
     ation 11b

     Renumbered
     as
     Recommend
     ation 11c
     Renumbered
     as
     Recommend
     ation 11d




89
     Final Report
      Reference




     Revised
     Finding
     Page 48




90
     Final Report
      Reference




     Renumbered
     as
     Recommend
     ation 12




91
     Final Report
      Reference




     Renumbered
     as
     Recommend
     ation 13




     Renumbered
     as
     Recommend
     ation 14




     Renumbered
     as
     Recommend
     ation 15




     Renumbered
     as
     Recommend
     ation 16




92
     Final Report
      Reference




     Revised
     Finding
     Pages 60-65




     Renumbered
     as
     Recommend
     ation 17




93
